<html>
<title> - FALLING THROUGH THE CRACKS: THE CHALLENGES OF PREVENTION AND IDENTIFICATION IN CHILD TRAFFICKING AND PRIVATE RE-HOMING</title>
<body><pre>[Senate Hearing 113-841]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-841

     FALLING THROUGH THE CRACKS: THE CHALLENGES OF PREVENTION AND 
       IDENTIFICATION IN CHILD TRAFFICKING AND PRIVATE RE-HOMING

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE CHALLENGES OF PREVENTION AND IDENTIFICATION IN CHILD 
                   TRAFFICKING AND PRIVATE RE-HOMING

                               __________

                              JULY 8, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                         U.S. GOVERNMENT PUBLISHING OFFICE
22-619 PDF                         WASHINGTON : 2017                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>  
          
          
          
          
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland		LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington		MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont		RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania	JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina		RAND PAUL, Kentucky
AL FRANKEN, Minnesota			ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado		PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island	LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin		MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut	 TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                                     

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                 ______

                 Subcommittee on Children and Families

                 KAY R. HAGAN, North Carolina, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
PATTY MURRAY, Washington             MARK KIRK, Illinois
BERNARD SANDERS (I), Vermont         RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
AL FRANKEN, Minnesota                RAND PAUL, Kentucky
MICHAEL F. BENNET, Colorado          ORRIN G. HATCH, Utah
CHRISTOPHER S. MURPHY, Connecticut   PAT ROBERTS, Kansas
ELIZABETH WARREN, Massachusetts      LAMAR ALEXANDER, Tennessee (ex 
TOM HARKIN, Iowa (ex officio)        officio)

                    Josh Teitelbaum, Staff Director

                                  (ii)

  
                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JULY 8, 2014

                                                                   Page

                           Committee Members

Hagan, Hon. Kay, Chairman, Subcommittee on Children and Families, 
  Committee on Health, Education, Labor, and Pensions, opening 
  statement......................................................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     3
Murphy, Hon. Christopher, a U.S. Senator from the Sate of 
  Connecticut....................................................    30
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    33

                               Witnesses

Chang, Joo Yeun, Associate Commissioner, Department of Health and 
  Human Services Children's Bureau, Washington, DC...............     5
    Prepared statement...........................................     7
English, Abigail, J.D., Director, Center for Adolescent Health 
  and the Law, Chapel Hill, NC...................................    10
    Prepared statement...........................................    11
Littrell, Jenee B., Assistant Principal, Grossmont Union High 
  School District, San Diego County, CA..........................    17
    Prepared statement...........................................    18
Twohey, Megan, Investigative Reporter, Thomson Reuters, New York, 
  NY.............................................................    20
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letters to:
        Senator Kay Hagan, from Hon. Lisa Madigan, Office of the 
          Attorney General, State of Illinois....................    40
        Marissa Meyer, CEO, President and Director, Yahoo! Inc., 
          from Hon. Lisa Madigan, Office of the Attorney General, 
          State of Illinois......................................    40
        Hon. Lisa Madigan, Office of the Attorney General, State 
          of Illinois, from Bill Ashworth, Senior Legal Director, 
          Public Policy, Yahoo! Inc..............................    41
        Mark Zuckerberg, Chairman and CEO, Facebook, Inc., from 
          Hon. Lisa Madigan, Office of the Attorney General, 
          State of Illinois......................................    42
        Hon. Lisa Madigan, Office of the Attorney General, State 
          of Illinois, from William D. Castleberry, Director of 
          State Public Policy, Facebook, Inc.....................    44
        William D. Castleberry, Director of State Public Policy, 
          Facebook, Inc., from Erik Jones, Director, Policy 
          Bureau, Assistant Attorney General, State of Illinois..    45
        Hon. Lisa Madigan, Office of the Attorney General, State 
          of Illinois, from William D. Castleberry, Director of 
          State Public Policy, Facebook, Inc.....................    47

                                 (iii)

  

 
     FALLING THROUGH THE CRACKS: THE CHALLENGES OF PREVENTION AND 
       IDENTIFICATION IN CHILD TRAFFICKING AND PRIVATE RE-HOMING

                              ----------                              


                         TUESDAY, JULY 8, 2014

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Kay Hagan, 
chairman of the subcommittee, presiding.
    Present: Senators Hagan, Casey, Murphy, and Enzi.

                   Opening Statement of Senator Hagan

    Senator Hagan. Good morning, everyone. The Senate 
Subcommittee on Children and Families will now come to order. 
Today's hearing is titled, ``Falling Through the Cracks: The 
Challenges of Prevention and Identification in Child 
Trafficking and Private Re-Homing''. I want to thank all of our 
witnesses who are here today to testify.
    I look forward to hearing your testimony. I know many of 
you have traveled many miles to get here. So I do appreciate 
your attendance.
    I also want to thank our Ranking Member, Senator Enzi, for 
joining me today to address these very important issues that 
we're going to be discussing in the hearing today.
    We are here to discuss the significant challenges that we 
face in the effort to prevent child trafficking and private re-
homing and to identify and support the children who have been 
victims of these types of abuse. Too many child victims today 
are going unidentified, misidentified, or underreported.
    As we will see, one of the reasons for this is the lack of 
education and training for our educators, who many times are on 
the front line and see these children; our healthcare 
providers, who see these children as they present for a number 
of reasons; and our social workers. However, with appropriate 
guidance, these dedicated professionals can play a critical 
role, both by helping to prevent these practices and by 
offering potentially lifesaving assistance to those children 
who need it the most.
    There are thousands of children--some accounts show up to 
300,000--that are being trafficked here in the United States. 
These young victims are often hidden in plain sight, and in 
many cases they are actually still attending school, which 
makes it particularly important that our educators can 
recognize the signs of a trafficking victim and then respond 
accordingly.
    This can be hard to fathom. It was really hard for me, 
personally. The average age of a child trafficking victim in 
the United States is between 11 years old to 14 years old. 
These are very young, vulnerable children. Girls at this age 
are particularly vulnerable. They may face trouble at home and 
then become susceptible to pressure from their peers or by 
manipulation by a trafficker.
    This happened to a young girl from a town in coastal North 
Carolina. She was attending school during the day, but in the 
evenings, a man who she believed was her boyfriend was actually 
selling her to other men for sex, often multiple times each 
night. It was not until she was actually questioned at school 
one day that authorities found lingerie in her book bag, and 
her story then came to light.
    That is why it is so critical that our educators understand 
this horrific problem and recognize the signs in youth that 
they work with every day. They can help make our students aware 
of the dangers and then educate them so they are not so 
vulnerable.
    Similarly, our healthcare providers need to have 
appropriate guidelines and screening practices to recognize 
trafficking victims in their care. As we're going to hear 
today, the healthcare response needs to be further developed to 
address the shortage of education and training for our 
providers.
    But even if professionals are aware of the problem, they 
face additional challenges when working with trafficked 
patients. These victims are often hesitant to disclose their 
experiences for fear of repercussions by the individuals who 
are their traffickers.
    This also happened to a 14-year-old girl that has been 
reported to me. Her trafficker had branded this young girl with 
a tattoo as if she was his possession and then advertised her 
services on Backpage. When authorities found her hiding behind 
a dumpster, she had been severely raped and traumatized. When 
she was finally brought in to receive care, she was so afraid 
of her trafficker that she recanted her story and then was 
referred to law enforcement for prosecution instead of 
receiving the healthcare services that she so desperately 
needed.
    Unfortunately, these instances are not unique. Child 
trafficking is prevalent in all of our communities. It will 
take all of our community stakeholders to come together to 
address this problem. We need leadership from the Federal 
Government to help raise this awareness about the issue and to 
lead the way in developing the practices and procedures that 
will increase the prevention efforts and help improve the 
identification of our trafficked youth.
    Last December, I introduced bipartisan legislation to 
address this growing problem of child trafficking with Senator 
Rubio. That bill is called the Strengthening the Child Welfare 
Response to Human Trafficking Act. This legislation would fill 
some of the gaps in the current system by providing 
professionals with the tools that they need to identify, 
document, educate, and counsel child victims of sex and labor 
trafficking.
    It would also amend the Child Abuse Protection and 
Treatment Act to ensure child welfare agencies properly 
identify, serve, and report trafficked children and allow law 
enforcement to be better able to track them. There are many 
ways in which this problem needs to be addressed. This hearing 
will be the first to explore how educators and healthcare 
providers can respond to child trafficking.
    The second topic of this hearing is the issue of private 
re-homing of adopted children. That was a new word for me in 
the last year or two. I'm pleased to hold this hearing, as it 
is the first hearing in the Senate on this topic.
    The practice of re-homing first came to light last 
September when Megan Twohey, who is here with us today, a 
reporter for Reuters, published her findings from an 
investigation during which she examined more than 5,000 
messages posted over 5 years on a Yahoo group site that was 
titled, ``Adopting-From-Disruption''. Through her research, she 
identified 261 adopted children who were, ``advertised'' online 
by their new families and in many cases re-homed into the care 
of adults who too often had a history of neglect, abuse, or 
sexually exploiting other children.
    The Reuters series profiled several adoptive parents who 
re-homed their children with a simple transfer of a power of 
attorney document, thus circumventing the protections of our 
child welfare system and jeopardizing those children's safety. 
Not surprisingly, many of the children involved in these 
unregulated transactions suffered from behavioral, emotional, 
and health issues.
    These are heartbreaking stories, and they involve children 
that too often had come into contact with our school employees 
or with healthcare providers who, despite their best efforts, 
were unable to offer these children the help that they needed, 
because these individuals had not been trained to recognize the 
warning signs. I'm hopeful that our discussion today is going 
to shine a light on this growing problem so that we can work 
together to ensure that professionals in education and 
healthcare who are in contact with these children are prepared 
to offer them the help that they need.
    With adequate training, these dedicated individuals can 
help begin to identify the signs and symptoms in children and 
then help report them as potential victims and make sure that 
at-risk children do not slip through these cracks and become 
victims in the future. To help us understand the challenges of 
prevention and identification of the victims of child 
trafficking and private re-homing, we're going to hear from a 
group of distinguished panelists this morning.
    They're going to share with us their stories and their 
insights and the work that they've done on these issues to help 
both prevent the proliferation of these types of abuse and then 
also, obviously, to help these children and young people who 
have been the victims. To our panelists, I ask you to keep your 
oral statements or opening statements to 5 minutes, and I also 
thank you for your excellent written statements, which have 
been submitted to the record.
    Senator Enzi, we would love to hear your opening comments.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Madam Chairman, and thank you for 
holding this important hearing to discuss the issues 
surrounding identification and prevention of child trafficking 
and re-homing instances in our country. Most of us have to say, 
``How can this possibly happen in America?''
    We often talk in Congress about policy decisions in terms 
of wanting something better for future generations, for our 
children and our grandchildren. I believe these sentiments hold 
true particularly for those of this future generation whose 
outcomes are in danger. I think we can all agree there is no 
greater bipartisan issue than the mutual desire to keep 
children safe and healthy in protective and loving homes.
    To that end, several committees have taken up or will take 
up issues of concern in the child trafficking and re-homing 
spheres. I am eager to tackle the issue by discussing issues 
under the purview of this subcommittee, including discussion of 
what processes are currently in place in our schools and 
healthcare sectors to identify children who may be victims of 
trafficking, and start talking about how we can increase the 
number of children who are preventatively identified.
    One of our witnesses today is from a school in San Diego 
that is practicing a plan that has worked. Dating back to my 
days as mayor of the city of Gillette, WY, I learned and have 
always believed that folks at the local level can best solve 
most of the problems we face. I am eager to hear how schools 
and States can collaborate to better address children who are 
in danger of becoming or are already trafficking victims.
    Re-homing is also a relatively new topic of discussion in 
Congress. Today, the focus will largely be on education and 
taking a look at this issue, its prevalence, and engaging in a 
dialog about what the Federal role is in this space.
    At the end of the day, our goal is to have better outcomes 
for our Nation's children and youth. That's my goal, and I know 
it's a goal of many of my colleagues. I'm hopeful that we can 
use this opportunity to gather and share information learned 
from States while encouraging State collaboration and work 
together on substantive issues.
    Thank you, Madam Chairman.
    Senator Hagan. Thank you, Senator Enzi. I am so 
appreciative of the work that we have done together on these 
issues, and I thank you for your help and support.
    Now, we'd like to hear from our witnesses. Our first 
witness is Ms. Joo Yeun Chang. Ms. Chang is the Associate 
Commissioner of the Children's Bureau within the U.S. 
Department of Health and Human Services.
    Our next witness is Ms. Abigail English. She is from my 
home State of North Carolina. She is a lawyer, researcher, and 
advocate, and is currently the director of the Center for 
Adolescent Health and the Law at the University of North 
Carolina at Chapel Hill. Recently, Ms. English was a member of 
the Institute of Medicine and the National Research Council 
Committee which issued the report titled, ``Confronting 
Commercial Sexual Exploitation and Sex Trafficking of Minors in 
the U.S.''.
    Following Ms. English is Ms. Jenee Littrell. Ms. Littrell 
is an assistant principal at the Grossmont Union High School in 
San Diego County, CA. After recognizing that children in her 
school district were being subjected to child sex trafficking 
approximately 4 years ago, Ms. Littrell and her colleagues 
partnered with local law enforcement to develop training for 
teachers so that professionals in the classrooms are now able 
to recognize the warning signs and connect the at-risk students 
to the critical support services that they need.
    Then, finally, we have Ms. Megan Twohey. Ms. Twohey is an 
investigative reporter for Reuters in New York, who, as I 
mentioned earlier, actually wrote the investigative series that 
first highlighted the practice of private re-homing.
    We're going to begin with Ms. Chang for her testimony. Once 
again, please limit your opening remarks to 5 minutes. Once 
each of you have concluded, then we'll begin the question and 
answer period of the hearing.
    Ms. Chang.

STATEMENT OF JOO YEUN CHANG, ASSOCIATE COMMISSIONER, DEPARTMENT 
 OF HEALTH AND HUMAN SERVICES CHILDREN'S BUREAU, WASHINGTON, DC

    Ms. Chang. Thank you, Chairwoman Hagan, Ranking Member 
Enzi. Thank you again for inviting me to testify today. My name 
is Joo Yeun Chang, and I'm the associate commissioner of the 
Children's Bureau, where I oversee the Federal foster care and 
adoption assistance programs, as well as a range of prevention 
and post-permanency initiatives. I am pleased to have this 
opportunity to share with you the Department of Health and 
Human Services' response to two very serious issues confronting 
the field of child welfare: the practice of adoptive parents 
re-homing their adopted children and human trafficking.
    I'll start with my comments on re-homing. Many of the 
stories highlighted in Ms. Twohey's Reuters investigative 
series described parents who were unable to meet the complex 
emotional and behavioral needs that emerged from their children 
post-adoption. These parents turned to online forums to 
advertise and facilitate the placement of their children 
without the benefit of safety and criminal background checks or 
a home study to determine the appropriateness of the placement.
    The Reuters article suggests that children advertised on 
these message boards are often placed in unsafe environments 
and are highly vulnerable to exploitation. Parents have a legal 
responsibility to protect and care for their children. 
Delegating responsibility for a child to a potentially unfit 
and unsafe individual through a power of attorney does not 
insulate parents from State laws regarding eminent risk of 
serious harm.
    I want to be clear. The practice of re-homing is 
unacceptable. It is clearly an act of abuse and neglect, and it 
should receive the full attention of child welfare agencies.
    Many of the key legal requirements related to child abuse 
and neglect, guardianship, and power of attorney, as well as 
adoption, are determined by States. Federal law requires that 
States have a process to receive and respond to all allegations 
of abuse and neglect. And although CAPTA, the Federal law, 
provides a minimum definition, State laws actually determine 
what constitutes abuse, neglect, abandonment, or exploitation 
of children.
    The Reuters article brought to our attention the need to 
provide guidance to States on how to respond when parents place 
their children in dangerous situations. It also highlighted the 
need for enhanced preparation, support, and post-adoption 
services for all adoptive families.
    The Children's Bureau released new guidance to States on 
May 30th of this year in the form of an information memorandum 
to help support children and families affected by disrupted 
adoptions. Through the IM, we encouraged States to review their 
laws that govern these areas to ensure that the issues that 
arise through the practice of re-homing are adequately 
addressed. We also encouraged States to promote the 
availability of post-adoption services and resources through 
various means of outreach and information sharing to the 
adoption community and, most importantly, to provide support 
before families are in a State of crisis.
    The Children's Bureau has also issued two funding 
opportunity announcements this spring related to the enhanced 
development and availability of post-adoption services that 
would be available for all adopted children and youth.
    I'd like to now turn my focus to the issue of child 
trafficking. HHS is committed to ensuring that victims of all 
forms of human trafficking have the access to the services and 
supports they need to foster health and well-being. Abused and 
neglected children are, unfortunately, vulnerable to 
trafficking. Some trafficked children have had contact with 
child welfare in some form, and some are current or previous 
wards of the State.
    In order to better understand and serve child victims of 
human trafficking, child welfare agencies are strongly 
encouraged to build their capacity to work with victims of 
human trafficking. Capacity building should include such areas 
as institutional education, staff training, supporting policies 
and procedures, appropriate screening and assessment tools, 
resource development, and data collection and analysis.
    With coordinated efforts in these areas, we hope to 
decrease vulnerability and trafficking among children and youth 
and to equip systems and services to identify and intervene 
early to address the needs of victimized young people. The 
Children's Bureau is committed to providing information to 
States and service programs to build greater awareness and 
better response to the problem of child trafficking.
    In September 2013, we published a guidance to States, and 
this year we will award grants that are designed to continue 
the development of child welfare systems' response to human 
trafficking through infrastructure building and a multisystem 
approach with schools, law enforcement, juvenile justice, 
courts, runaway and homeless youth programs, and other 
necessary service providers.
    The administration looks forward to working with you to 
address both of these crucial issues and improve services to 
some of our most vulnerable young people.
    Again, thank you for the opportunity to testify today.
    I'd be happy to answer any questions.
    [The prepared statement of Ms. Chang follows:]
                  Prepared Statement of Joo Yeun Chang
    Chairwoman Hagan, Ranking Member Enzi, and members of the 
subcommittee, thank you for inviting me to testify. I am pleased to 
have the opportunity to share with you the Department of Health and 
Human Services' (HHS) response to two very serious issues confronting 
the field of child welfare: the practice of adoptive parents ``re-
homing'' their adopted children and human trafficking.
    I am Joo Yeun Chang, Associate Commissioner of the Children's 
Bureau. I have worked as a national advocate on child welfare policies 
both as a senior staff attorney at the Children's Defense Fund and 
immediately prior to my appointment to the Bureau, I worked at Casey 
Family Programs Foundation where I worked closely with State and local 
child welfare agencies. In my current role, I oversee the Federal 
foster care and adoption assistance programs as well as a range of 
prevention and post-permanency initiatives.
                               re-homing
    The term ``re-homing'', a term typically used by pet owners seeking 
new homes for their pets, has become widely used to describe the 
behavior of these parents who sought to relinquish care of their 
adopted children outside the purview of the courts or public child 
welfare agencies.
    In September 2013, the Reuters News Agency reported on its 
investigation of an online Yahoo group bulletin board known as 
``Adopting-from-Disruption.'' This bulletin board, and nine others like 
it that have been identified, were ostensibly intended to provide ``a 
place where struggling parents sought support from one another.'' In a 
small but significant number of cases, however, these bulletin boards 
were used as a means for adoptive families to ``advertise'' and 
facilitate placements of their children with non-relative strangers. 
The adoption site highlighted in the article, on which 261 posts for 
re-homing children had been placed over a 5-year period, has since been 
shut down.
    According to the Reuters article, nearly 70 percent of the children 
advertised for re-homing on the Yahoo bulletin board who were 
investigated were born overseas and are presumed to be international 
adoptees. Many of the stories highlighted in the Reuters' investigative 
series described parents who were unable to meet the complex emotional 
and behavioral needs that emerged post-adoption. Some of the parents 
interviewed reported seeking, without success, assistance from public 
child welfare agencies. These parents turned to online forums to 
advertise and facilitate the placement of their children without the 
benefit of safety and criminal background checks or a home study to 
determine the appropriateness of the placement. Instead these parents 
delegated to strangers the authority to make education and health 
decisions on behalf of their child through power of attorney documents.
    Parents have a legal responsibility to protect and care for their 
children. Delegating responsibility for a child to a potentially unfit 
and unsafe individual through a power of attorney does not insulate 
parents from State laws regarding imminent risk of serious harm. The 
Reuters article suggests that children advertised on these message 
boards are often placed in unsafe environments and are highly 
vulnerable to exploitation.
    The practice of re-homing is unacceptable, is clearly an act of 
abuse and neglect, and should receive the full attention of child 
welfare agencies.
    Many of the key legal requirements relating to child abuse and 
neglect, guardianship and power of attorney, and adoption are 
determined by States. Under the Child Abuse Prevention and Treatment 
Act (CAPTA), States must have provisions and procedures to receive and 
respond to all reports of child abuse or neglect. CAPTA defines child 
abuse and neglect as,

          ``at a minimum any recent act or failure to act on the part 
        of a parent or caretaker, which results in the death, serious 
        physical or emotional harm, sexual abuse or exploitation, or an 
        act or failure to act which presents an imminent risk of 
        serious harm.''

    State laws then determine what constitutes abuse, neglect, 
abandonment, or exploitation of children. States also establish rules 
related to guardianship and power of attorney. In addition, States set 
the rules for domestic adoption and recognition of adoptions finalized 
in other countries, including criteria for the termination of parental 
rights and how advertising of an adoption may occur.
    The prevalence of re-homing and adoption disruption/dissolutions is 
difficult to measure precisely as there are limited formal means by 
which this information is reported. Title IV-B of the Social Security 
Act requires that States collect and report information on children who 
are adopted from other countries and who enter into State custody as a 
result of the disruption of a placement for adoption or the dissolution 
of an adoption. These requirements apply only to those children and 
families that become involved with State child welfare agencies. Some 
information about adoption from foster care can be found in reports 
from the Children's Bureau's Adoption and Foster Care Analysis and 
Reporting System, and some information on international adoptions can 
be obtained from visas issued by the State Department. However, to our 
knowledge, there is no central registry or clearinghouse for 
information on private, domestic adoptions.
    One thing I think the investigation by Reuters further highlights 
is the call for enhanced preparation, support, and post-adoption 
services for all adoptive families. We also recognize the great number 
of foster parents raising children that are unrelated to them without 
the benefit of adoption or guardianship.
    Child welfare is largely under the purview of State laws. The 
Federal Government provides a minimum definition of child maltreatment, 
grants to support a range of prevention, intervention and post 
permanency supports, and technical assistance and guidance on a range 
of issues. For example, the Children's Bureau released new guidance to 
the States on May 30, 2014 in the form of an Information Memorandum 
(IM) to help support children and families affected by disrupted 
adoptions.
    This memorandum provides an overview of the practice of re-homing 
of adopted children, conveys concerns about this practice, and 
encourages State title IV-B and IV-E agencies to develop and promote 
the provision of post-adoption services and resources to adopted 
children and youth including those adopted internationally. Agencies 
were further encouraged to promote the availability of post-adoption 
services and resources through various means of outreach and 
information sharing to the adoption community.
    The IM encourages States to develop and provide a continuum of 
post-adoption services for adoptive families, both domestic and 
international, so as to provide interventions and support before 
families are in a state of crisis.
    The Children's Bureau issued two funding opportunity announcements 
this spring related to enhanced development and availability of post-
adoption services that would be available for all adopted children and 
youth. These funding opportunities are intended to strengthen the 
relationships between adoptive children and families. This first 
funding opportunity, the National Adoption Competency Mental Health 
Training Initiative, is intended to improve the well-being of children 
before adoption and provide therapeutic post-adoption support. The 
second, the National Quality Improvement Center for Adoption/
Guardianship Support and Preservation, is intended to establish a 
center to conduct projects with selected State child welfare systems to 
improve the behavioral health of adoptive children. A wide range of 
parties are eligible to apply under these funding opportunities 
including public and private agencies, universities, and State and 
local governments.
    Our goal is to produce, through these funding opportunities, models 
of evidence-based services for all States in designing a successful 
system of pre-and post-adoption supports including in-home counseling, 
24-hour call center support, 24-hour in-home crisis intervention, 
mental health services, and support groups.
    In addition to a call for increased services and supports for 
adoptive families to prevent re-homing, the Reuters article also 
brought to our attention the need to provide guidance to the States on 
how to respond when parents place their children in dangerous 
situations. State laws determine what constitutes abuse, neglect, 
abandonment, and exploitation of children. States also establish laws 
related to guardianship and power of attorney. Finally, States 
establish the laws for domestic adoption and recognition of adoptions 
finalized in other countries, including criteria for the termination of 
parental rights and how advertising of a child eligible for adoption 
may occur.
    The Children's Bureau, through the IM, encourages States to review 
their laws that govern these areas to ensure that the issues that arise 
through the practice of re-homing are adequately addressed. Some States 
are already amending their statutes in response to the practice of re-
homing. For example, Wisconsin recently enacted a law that expands 
their existing prohibition of advertising a child for adoption to 
include electronic media, requires that delegation of parental powers 
to a non-family member for more than a year be approved by a juvenile 
court, and prohibits the unauthorized interstate placement of children. 
Louisiana passed a law prohibiting the practice of transferring custody 
of adopted children to unrelated individuals without court approval.
    In addition to these activities, the Children's Bureau participates 
with the State Department, U.S. Citizenship and Immigration Services, 
and the Department of Justice in monthly calls related to broader re-
homing issues. We are working with these agencies to develop 
collaborative strategies to encourage practice and policy changes and 
to assist States in developing supportive services.
                           child trafficking
    I would now like to turn my focus to the issue of child 
trafficking.
    HHS is committed to ensuring that victims of all forms of human 
trafficking--adults and children; foreign national, citizens, and legal 
residents; survivors of labor and commercial sexual exploitation--have 
access to the support they need to foster health and well-being. The 
Children's Bureau is an active member of the Administration for 
Children and Families and HHS working groups on human trafficking 
seeking to strengthen coordination across multiple programs and 
services within the Department and collaborating with Federal partners 
through inter-agency initiatives.
    Abused and neglected children are vulnerable to trafficking. Some 
trafficked children have had contact with child protection services in 
some form, either as current or previous wards of the State, as 
residents in foster care or group homes, or after running away from 
foster care. In some cases, they may even have been recruited and 
victimized by traffickers while they were receiving these services.
    In order to better understand and serve child victims of human 
trafficking, child welfare agencies are strongly encouraged to build 
internal capacity to work with victims of human trafficking.
    Capacity building should include areas such as institutional 
education, staff training, supporting policies and procedures, 
appropriate screening and assessment tools, resource development, and 
data collection and analysis. Child welfare capacity building efforts 
can leverage the existing training and technical assistance available 
through the National Human Trafficking Resource Center, a 24-hour 
national hotline also supported by the Administration for Children and 
Families. Child welfare agencies should engage in system-wide outreach 
to support similar capacity-building efforts in other systems such as 
the runaway and homeless youth and juvenile justice areas. Child 
welfare agencies should also collaborate with existing community-based 
task forces, coalitions, and organizations focused on responding to 
human trafficking. With coordinated efforts in these areas, we hope to 
decrease vulnerability to trafficking among children and youth and to 
equip systems and services to identify and intervene early to address 
the needs of victimized young people.
    There is a limited amount of aggregate data to identify the 
prevalence and characteristics of victims of human trafficking within 
the child welfare systems. Nonetheless, efforts to systematically 
measure the size of this (and the re-homing) population is crucial in 
understanding the scope of the problem. Similarly, while there are some 
emerging practices within child welfare systems, as well as other 
sources within the child protection community, there is still work to 
be done to create an evidence base on effective interventions and 
practices that promote better outcomes specifically for child 
trafficking victims. Building a more solid evidence base with better 
data will be necessary to all efforts to end trafficking.
    The Children's Bureau is committed to providing information to 
States and service programs to build greater awareness and better 
response to the problem of child trafficking. In June 2013, the annual 
Trafficking in Persons Report released by the Department of State noted 
a need for HHS to provide formal guidance to child welfare agencies on 
the prevention of and response to child trafficking. In September 2013, 
we published the Guidance to States and Services on Addressing Human 
Trafficking of Children and Youth in the United States. This guide is 
intended to elevate the issue and offer guidance to child welfare 
system service providers, based on current research and practice, to 
improve the collective response to this issue. This guidance 
acknowledges emerging knowledge and practices that systems and services 
can consider integrating into existing activities.
    No single system can successfully combat trafficking. Preventing, 
identifying, and serving victims of trafficking require a multi-system, 
coordinated approach within and across local, tribal, State, and 
Federal levels. That is why the Children's Bureau developed a funding 
opportunity announcement (FOA) titled, ``Grants to Address Trafficking 
within the Child Welfare Population.'' This grant is designed to 
continue the development of child welfare systems' response to human 
trafficking through infrastructure building, and a multi-system 
approach with schools, local law enforcement, juvenile justice, courts 
systems, runaway and homeless youth programs, Children's Justice Act 
(CJA) grantees, child advocacy centers, anti-trafficking organizations, 
and other necessary service providers. It is noteworthy that CJA 
grantees provide training to mandated reporters, and this grant program 
could provide an opportunity to increase training to various mandated 
reporters regarding trafficking.
    We are also partnering with the HHS Assistant Secretary for 
Planning and Evaluation to fund a contract to examine the intersection 
of human trafficking with child welfare and runaway and homeless youth 
programs. This contract will identify a screening tool and protocol 
that can be used by youth serving programs to identify youth who are 
victims of human trafficking; pilot study the feasibility (viability), 
reliability, and validity of implementing this screening tool/protocol 
in child welfare and runaway and homeless youth settings; and identify 
data elements that can be collected and reported in order to better 
determine the extent of the problem and improve services to youth.
    These examples demonstrate ACF's commitment to strengthening 
services to human trafficking victims found in the Federal Strategic 
Action Plan on Services for Victims of Human Trafficking in the United 
States for 2013-17.
    The Administration looks forward to working with each of you to 
address both of these crucial issues and improve services to some of 
our most vulnerable youth.
    Again, thank you for the opportunity to testify today. I would be 
happy to answer any questions.

    Senator Hagan. Thank you, Ms. Chang.
    Ms. English.

   STATEMENT OF ABIGAIL ENGLISH, J.D., DIRECTOR, CENTER FOR 
         ADOLESCENT HEALTH AND THE LAW, CHAPEL HILL, NC

    Ms. English. Senator Hagan and Senator Enzi, good morning 
and thank you for the opportunity to testify this morning. My 
name is Abigail English, and I'm director of the Center for 
Adolescent Health and the Law in Chapel Hill, NC.
    The sex trafficking of children and adolescents represents 
profound violations of their human rights. The physical, 
emotional, social, and legal burden on the victims and 
survivors is severe and can have life-long, even life-
threatening consequences.
    In 2012 and 2013, I was privileged to serve as a member of 
an IOM, Institute of Medicine, and National Research Council 
Committee which published its comprehensive report in September 
2013, Confronting Commercial Sexual Exploitation and Sex 
Trafficking of Minors in the United States. In 2010 and 2011, I 
was a fellow at the Radcliffe Institute for Advanced Study at 
Harvard University conducting research on sexual exploitation 
and trafficking of adolescents.
    The IOM committee's deliberations were guided by three 
fundamental principles. No. 1, commercial sexual exploitation 
and sex trafficking of minors should be understood as acts of 
abuse against children and adolescents. No. 2, minors who are 
commercially sexually exploited or trafficked for sexual 
purposes should not be considered criminals. No. 3, 
identification of victims and survivors and any interventions 
should do no further harm to any child or adolescent.
    The IOM committee also concluded that efforts to prevent, 
identify, and respond require better collaborative approaches 
and must confront demand and hold accountable the individuals 
who commit and benefit from these abusive acts and crimes. 
Although accurate nationwide prevalence estimates based on 
reliable evidence are not available, the IOM committee 
concluded that the available evidence does suggest that 
commercial sexual exploitation and sex trafficking of minors 
has been reported in every region and State, and that victims 
come from diverse backgrounds in terms of geography, income, 
race, ethnicity, gender, and sexual orientation.
    Nevertheless, some populations of children are likely to be 
at heightened risk for victimization. These include children 
who have been sexually abused, youth who lack stable housing, 
sexual and gender minority youth, youth who have used or abused 
drugs or alcohol, and youth who have experienced homelessness, 
foster placement, or juvenile justice involvement.
    The IOM committee found that healthcare professionals can 
play an important role in the prevention and identification of 
children and adolescents who are victims or who may be at risk 
of commercial sexual exploitation and sex trafficking. However, 
numerous barriers exist to limit identification. These barriers 
include a lack of understanding and awareness; the lack of 
disclosure by victims; and a lack of established screening 
practices, policies, and protocols to guide healthcare 
professionals.
    Such practices, policies, and protocols do exist for child 
abuse and domestic violence, which could provide a basis for 
developing ones for sexual exploitation and trafficking. 
Healthcare professionals also have a role to play in treatment. 
In order to provide effective prevention, identification, and 
treatment for victims and survivors, healthcare professionals 
require specific training and tools.
    Educators and school personnel also can play an important 
role in the prevention and identification of children and 
adolescents who are victimized by or at risk for commercial 
sexual exploitation and sex trafficking. Similar to the ways in 
which school-based health education initiatives have been used, 
for example, to promote physical activity, reduce tobacco use, 
promote healthy sexual behaviors, reduce dating violence, and 
reduce alcohol impaired driving, schools could develop 
prevention education initiatives directed to the reduction and 
remediation of commercial sexual exploitation and sex 
trafficking.
    In order to ensure that prevention and identification 
efforts do no harm, appropriate services must be available to 
which victims and survivors can be referred if and when they 
are identified. More thorough evaluation of the use of trauma-
informed care is warranted, and emergency shelter and short- 
and long-term housing are particularly scarce. Without 
appropriate services, victims and survivors are at risk for re-
exploitation and repeat trafficking.
    Finally, in a majority of States, it is still possible for 
prostituted, exploited, and trafficked children to be arrested, 
prosecuted, detained, and incarcerated for sexual offenses such 
as prostitution or for related offenses such as loitering or 
drug offenses, even if they were being exploited or trafficked. 
A growing number of States are enacting laws often referred to 
as safe harbor laws to redirect exploited and trafficked 
children and adolescents out of the juvenile and criminal 
justice system and into the child welfare system or to other 
services. The IOM report recommends that all jurisdictions 
develop laws and policies designed for this purpose.
    Thank you for the opportunity to present this testimony, 
and I look forward to your questions.
    [The prepared statement of Ms. English follows:]
              Prepared Statement of Abigail English, J.D.
                                summary
    My name is Abigail English and I am director of the Center for 
Adolescent Health & the Law in Chapel Hill, NC. In 2012 and 2013, I 
served as a member of the Institute of Medicine and National Research 
Council Committee on Commercial Sexual Exploitation and Sex Trafficking 
of Minors in the United States (IOM Committee), which published a 
comprehensive report in September 2013, Confronting Commercial Sexual 
Exploitation and Sex Trafficking of Minors in the United States (IOM 
Report).
    The IOM Committee's deliberations were guided by three fundamental 
principles:

    1. Commercial sexual exploitation and sex trafficking of minors 
should be understood as acts of abuse against children and adolescents.
    2. Minors who are commercially sexually exploited or trafficked for 
sexual purposes should not be considered criminals.
    3. Identification of victims and survivors and any interventions, 
above all, should do no further harm to any child or adolescent.
                      terminology and definitions
    The wide variation in the terminology used to describe commercial 
sexual exploitation and sex trafficking of minors and in the definition 
of these problems means that there is no shared language or precise 
understanding of the scope of the problems. The IOM Report focuses on 
three specific aspects of these problems: trafficking of minors for 
purposes of sexual exploitation, exploitation of minors through 
prostitution, and survival sex.
                               prevalence
    Accurate nationwide estimates of prevalence are not available. One 
review of the prevalence of prostituted juveniles showed that estimates 
ranged from 1,400 to 2.4 million. Nevertheless, the IOM Committee 
concluded that the available evidence does suggest that commercial 
sexual exploitation and sex trafficking of minors has been reported in 
every region and State and that victims come from diverse backgrounds 
in terms of geography, income, race, ethnicity, gender, and sexual 
orientation.
                              consequences
    The IOM Committee concluded that commercial sexual exploitation and 
sex trafficking of minors in the United States are serious problems 
with immediate and long-term adverse consequences. The IOM Report also 
suggests that a comprehensive understanding of the consequences of 
commercial sexual exploitation and sex trafficking of minors include 
health, developmental, and legal consequences, as well as the risks of 
re-exploitation and further victimization.
        prevention and identification in the health care sector
    The IOM Committee found that health care professionals can play an 
important role in the prevention and identification of children and 
adolescents who are victims or who may be at risk of commercial sexual 
exploitation and sex trafficking. However, numerous barriers exist to 
limit identification by health care professionals of victims, 
survivors, and young people at risk. These barriers include a lack of 
understanding by health care professionals, the lack of disclosure by 
victims, and a lack of established screening practices, policies, and 
protocols in the health care field.
         prevention and identification in the education sector
    Educators and school personnel can play an important role in the 
prevention and identification of children and adolescents who are 
victimized by or at risk for commercial sexual exploitation and sex 
trafficking. Schools could develop prevention education initiatives 
directed to the reduction and remediation of commercial sexual 
exploitation and sex trafficking.
           services and laws to protect victims and survivors
    Effectiveness of prevention and identification will depend 
ultimately on the availability of appropriate services to which victims 
and survivors can be referred and on laws being in place that redirect 
victims and survivors out of the juvenile and criminal justice systems 
to those services.
                                 ______
                                 
    Senator Hagan, Senator Enzi, and members of the Senate HELP 
Subcommittee on Children and Families: My name is Abigail English and I 
am director of the Center for Adolescent Health & the Law in Chapel 
Hill, NC. I am honored to have the opportunity to testify about child 
sex trafficking at the Senate HELP Subcommittee on Children and 
Families hearing, ``Falling Through the Cracks: The Challenges of 
Prevention and Identification in Child Trafficking and Private 
Rehoming.'' The sex trafficking of children is a critically important 
issue to which I have devoted my professional attention and research 
for the past several years. In 2012 and 2013, I was privileged to serve 
as a member of the Institute of Medicine and National Research Council 
Committee on Commercial Sexual Exploitation and Sex Trafficking of 
Minors in the United States (IOM Committee), which published a 
comprehensive report in September 2013, Confronting Commercial Sexual 
Exploitation and Sex Trafficking of Minors in the United States\1\ (IOM 
Report). In 2010 and 2011, I was a fellow at the Radcliffe Institute 
for Advanced Study at Harvard University conducting research on sexual 
exploitation and trafficking of adolescents. I am pleased to share the 
findings and recommendations from the IOM Report, as well as 
information from my own research.
---------------------------------------------------------------------------
    \1\ IOM (Institute of Medicine) and NRC (National Research 
Council). 2013. Confronting commercial sexual exploitation and sex 
trafficking of minors in the United States.
---------------------------------------------------------------------------
    At the request of the Department of Justice (DOJ) Office of 
Juvenile Justice and Delinquency Prevention (OJJDP), the IOM Committee 
conducted a 2-year study examining the available evidence in order to 
develop recommendations concerning strategies for responding to 
commercial sexual exploitation and sex trafficking of minors in the 
United States, new legislative approaches, and a research agenda. In 
addition to a comprehensive review of the published literature, the 
committee heard from numerous witnesses at two public workshops and 
conducted site visits in four cities. The resulting IOM Report contains 
extensive analysis of the evidence as well as findings, conclusions, 
and recommendations related to the nature and extent of commercial 
sexual exploitation and sex trafficking, risk factors and consequences, 
laws and the legal system, victim and support services, health and 
health care, the education sector, the commercial sector, and multi-
sector and interagency collaboration.
    The IOM Committee's deliberations were guided by three fundamental 
principles:

    1. Commercial sexual exploitation and sex trafficking of minors 
should be understood as acts of abuse against children and adolescents.
    2. Minors who are commercially sexually exploited or trafficked for 
sexual purposes should not be considered criminals.
    3. Identification of victims and survivors and any interventions, 
above all, should do no further harm to any child or adolescent.

    In addition to numerous specific findings and conclusions related 
to various sectors that are involved in responding to commercial sexual 
exploitation and sex trafficking of minors, the IOM Committee concluded 
that efforts to prevent, identify, and respond require better 
collaborative approaches that build upon the capabilities of people and 
entities from a range of sectors. Such efforts also will need to 
confront demand and hold accountable the individuals who commit and 
benefit from these abusive acts and crimes.
    The IOM Report groups its specific recommendations under five 
overarching imperatives:

    <bullet> Increase awareness and understanding through training of 
professionals and public awareness campaigns.
    <bullet> Strengthen the law's response through development of laws 
and policies that redirect young victims and survivors away from arrest 
and prosecution as criminals or adjudication as delinquents to 
appropriate services, and through laws that hold exploiters, 
traffickers, and solicitors accountable.
    <bullet> Strengthen research to advance understanding and to 
support development of prevention and intervention strategies through a 
research agenda that includes both efforts to refine estimates about 
the prevalence of commercial sexual exploitation and trafficking in 
specific subpopulations of vulnerable youth and research to develop 
evidence-based prevention and intervention strategies, gender- and 
ethnic-responsive services, support for difficult to reach populations, 
multi-sector approaches, and demand reduction.
    <bullet> Support multi-sector and interagency collaboration through 
development of guidelines and technical assistance to support 
collaboration and information sharing.
    <bullet> Create a digital information-sharing platform to deliver 
reliable real-time information on ways to prevent, identify, and 
respond to commercial sexual exploitation and sex trafficking of minors 
in the United States.

    These recommendations are directed to Congress; State legislatures; 
numerous Federal and State governmental agencies; national, State, and 
local bar associations, academic and research institutions, foundations 
and nongovernmental organizations, and the commercial sector.
                      terminology and definitions
    The wide variation in the terminology used to describe commercial 
sexual exploitation and sex trafficking of minors and in the definition 
of these problems means that there is no shared language or precise 
understanding of the scope of the problems. The terms range from 
diagnostic and scientific (e.g., screening, medical forensic exam) to 
legal (e.g., trafficking, perpetrator) to colloquial terms from popular 
culture (e.g., pimp, john, child prostitute) to terms derived from the 
experience of survivors, service providers, and advocates (e.g., 
victim, survivor, modern-day slavery). The ambiguities and confusion in 
language can result in serious harm to the affected children and 
adolescents. For example, if a teenage girl who exchanges a sexual act 
for money is viewed as a child prostitute she may be arrested, 
detained, adjudicated as a delinquent, and incarcerated rather than 
being referred to appropriate services, even if she was a victim of an 
exploiter or trafficker.
    The IOM Report defines commercial sexual exploitation and sex 
trafficking of minors as encompassing a wide range of crimes of a 
sexual nature committed against children and adolescents, including 
trafficking a minor for sexual purposes, exploiting a minor through 
prostitution, exploiting a minor through survival sex (exchange of 
sexual acts for something of value such as shelter, food, or drugs), 
using a minor in pornography, exploiting a minor through sex tourism, 
and exploiting a minor through performance in sexual venues. The IOM 
Report focuses on three specific aspects of these problems: trafficking 
of minors for purposes of sexual exploitation, exploitation of minors 
through prostitution, and survival sex.
                               prevalence
    Although there is significant interest in knowing the prevalence of 
commercial sexual exploitation and sex trafficking of minors in the 
United States, accurate nationwide estimates based on reliable evidence 
are not available. This is due to numerous factors including the 
difficulties associated with the counting of crimes in general and the 
counting of sexual exploitation and trafficking in particular, 
resulting in dramatic discrepancies among the available estimates. For 
example, one review of the prevalence of prostituted juveniles showed 
that estimates ranged from 1,400 to 2.4 million.\2\
---------------------------------------------------------------------------
    \2\ Stransky, M., and D. Finkelhor. 2008. How many juveniles are 
involved in prostitution in the U.S.? Durham, NH: Crimes Against 
Children Research Center.
---------------------------------------------------------------------------
    In spite of the lack of an accurate national estimate of 
prevalence, and the difficulties inherent in developing one, the IOM 
Committee concluded that the available evidence does suggest that 
commercial sexual exploitation and sex trafficking of minors has been 
reported in every region and State and that victims come from diverse 
backgrounds in terms of geography, income, race, ethnicity, gender, and 
sexual orientation. Nevertheless, some populations of children are 
likely to be at heightened risk for victimization. These include 
children who have been sexually abused; youth who lack stable housing; 
sexual and gender minority youth; and youth who have used or abused 
drugs and or alcohol; and youth who have experienced homelessness, 
foster care placement, or juvenile justice involvement.
                              consequences
    The IOM Committee concluded that commercial sexual exploitation and 
sex trafficking of minors in the United States are serious problems 
with immediate and long-term adverse consequences. The IOM Report cites 
a 1996 report from the first World Congress Against Commercial Sexual 
Exploitation of Children,\3\ which pointed out that although direct 
scientific evidence is sparse, there is little doubt that the sexual 
exploitation of children results in serious, often life-long, and 
sometimes life-threatening consequences for the physical, 
psychological, and social health of the child. The IOM Report also 
suggests that a comprehensive understanding of the consequences of 
commercial sexual exploitation and sex trafficking of minors include 
health, developmental, and legal consequences, as well as the risks of 
re-exploitation and further victimization.
---------------------------------------------------------------------------
    \3\ World Congress Against Commercial Sexual Exploitation of 
Children. 2002. Welcome. http://www.csecworldcongress.org/en/index.htm.
---------------------------------------------------------------------------
        prevention and identification in the health care sector
    The IOM Committee found that health care professionals can play an 
important role in the prevention and identification of children and 
adolescents who are victims or who may be at risk of commercial sexual 
exploitation and sex trafficking. However, numerous barriers exist to 
limit identification by health care professionals of victims, 
survivors, and young people at risk. These barriers include a lack of 
understanding and awareness that results from stereotypes and 
misperceptions, a lack of specific training, funding constraints, and 
competing priorities for training and education. Nevertheless, 
opportunities may exist to build on past experience and current models 
in the development of training on child abuse and domestic violence.
    Another important barrier is the lack of disclosure by victims of 
being commercially sexually exploited or trafficked due to fear or 
distrust of professionals and the systems in which they work, as well 
as fear of retribution by their trafficker or exploiter, a perception 
that they are not being exploited, or a belief that they are 
responsible for their own exploitation. Victims and survivors who do 
not disclose their exploitation and health care professionals who fail 
to identify victims and survivors are influenced in part by potential 
and perceived complications related to mandated reporting. The IOM 
Committee did not make a specific recommendation regarding mandated 
reporting of commercial sexual exploitation and sex trafficking of 
minors as child abuse, but the committee did explain the complex 
considerations related to mandated reporting that include variations in 
the scope of State laws, reluctance of health care professionals to 
discourage mistrustful youth from seeking health care or to place them 
at greater risk from their exploiters, and reluctance of youth to 
disclose their exploitation.
    Finally, there is a lack of established screening practices, 
policies, and protocols in the health care field to guide health care 
professionals in the identification and prevention of commercial sexual 
exploitation and sex trafficking of children and adolescents. Such 
practices, policies, and protocols do exist for child abuse and 
domestic violence, which could provide a basis for developing ones for 
sexual exploitation and trafficking.
    Health care professionals have a role to play both in 
identification and prevention, but also in treatment. As the IOM Report 
states:

          ``Regardless of how they are identified, it is essential that 
        health care professionals recognize and treat the myriad acute 
        and chronic medical and mental health needs of minors who are 
        victims or survivors of commercial sexual exploitation and sex 
        trafficking.''

    One noteworthy example of a health care provider site that has been 
working to prevent, identify, and treat victims and survivors of 
commercial sexual exploitation and sex trafficking is Asian Health 
Services in Oakland, CA. The programs include: primary prevention 
(e.g., education on healthy relationships for children and adolescents 
and continuing medical education on sex trafficking for health care 
professionals), secondary prevention (e.g., diagnosis and treatment of 
victims and survivors before their exploitation results in significant 
harms or illnesses), and tertiary prevention (e.g., intervention to 
minimize harms from exploitation).
    In order to provide effective prevention, identification, and 
treatment for victims and survivors, health care professionals require 
specific training. Although there is a paucity of evaluated training 
programs, a few organizations have developed training programs that 
could be evaluated and serve as models. Some of the existing programs 
focus on human trafficking in general, such as that provided by the 
Houston Rescue and Restore Coalition in collaboration with the 
University of Texas School of Public Health and an online training 
program offered by the Polaris Project; other programs are specific to 
minor victims of sex trafficking, such as the five-session series 
offered by Children's Health Care of Atlanta together with the Georgia 
Governor's Office for Children and Families.
    In addition to training programs, a number of tools exist for 
identifying victims and survivors of commercial sexual exploitation and 
sex trafficking. These tools have been developed by several different 
organizations and agencies, including the International Organization 
for Adolescents, Asian Health Services, the Administration for Children 
and Families Office of Refugee Resettlement, the Polaris Project, and 
the Mt. Sinai Adolescent Clinic. These tools are likely to be more 
effective if used by health care professionals who have been trained in 
the nature of the trauma suffered by victims and survivors. The IOM 
Report provided these examples of training programs and screening 
tools, rather than endorsing any particular one, because they have not 
yet been evaluated.
         prevention and identification in the education sector
    Educators and school personnel can play an important role in the 
prevention and identification of children and adolescents who are 
victimized by or at risk for commercial sexual exploitation and sex 
trafficking. Similar to the ways in which school-based health education 
initiatives have been used, for example, to promote physical activity, 
reduce tobacco use, promote healthy sexual behaviors, reduce dating 
violence, and reduce alcohol-impaired driving, schools could develop 
prevention education initiatives directed to the reduction and 
remediation of commercial sexual exploitation and sex trafficking.
    The IOM Report identified examples of primary, secondary, and 
tertiary prevention programs based on a framework developed by the 
Department of Health & Human Services Administration for Children and 
Families. Secondary prevention might include, for example, education 
programs located in high schools for individuals who have one or more 
risk factors associated with commercial sexual exploitation and sex 
trafficking of minors. Efforts in the education sector to address these 
problems could include development of district-wide policies and 
partnerships, as done by Grossmont Union High School District in 
California's east San Diego county; leveraging of school and community 
resources as done by the Oakland Unified School District in Oakland, 
CA, in partnership with the Oakland High School Wellness Center, which 
has trained school personnel to identify victims and refer them to the 
Wellness Center; and raising awareness among members of the school 
community through dissemination of fact sheets, incorporation of sexual 
exploitation and trafficking in emergency management efforts for 
schools, and targeted education programs for specific populations.
                   services for victims and survivors
    One of the IOM Committee's guiding principles was that 
identification of victims and survivors and any interventions, above 
all, should do no further harm to any child or adolescent. In order to 
ensure that prevention and identification efforts do no harm, it is 
essential that appropriate services be available to which victims and 
survivors can be referred if and when they are identified in the health 
care sector, the education sector, or other settings. Because a wide 
variety of survivors, as well as governmental and nongovernmental 
stakeholders are increasingly calling for the use of trauma-informed 
care for victims and survivors of commercial sexual exploitation and 
sex trafficking, a more thorough evaluation of these approaches is 
warranted. The IOM Committee found that services are too few to meet 
current needs, are unevenly distributed, lack adequate resources, and 
vary in their ability to provide specialized care. In particular, the 
committee found that emergency shelter and short- and long-term housing 
is particularly scarce. Without adequate services in place, victims and 
survivors who are identified are at risk for re-exploitation and repeat 
trafficking.
                 laws to protect victims and survivors
    Another of the IOM Committee's guiding principles was that minors 
who are commercially sexually exploited or trafficked for sexual 
purposes should not be considered criminals. Nevertheless in a majority 
of States it is still possible for prostituted children to be arrested, 
prosecuted, detained, and incarcerated for sexual offenses such as 
prostitution; they may also be arrested and processed for related 
offenses such as loitering or drug offenses, even if the reason they 
came to the attention of law enforcement was that they were being 
prostituted, with or without the involvement of a third party exploiter 
or trafficker. In response to this situation, a growing number of 
States are enacting laws, often referred to as ``Safe Harbor Laws,'' to 
redirect exploited and trafficked children and adolescents out of the 
juvenile and criminal justice system and into the child welfare system 
or to other services. In order to ensure that victims and survivors are 
not treated as criminals and instead receive appropriate services, the 
IOM Report recommended that all national, State, local, tribal, and 
territorial jurisdictions develop laws and policies that redirect young 
victims and survivors away from the juvenile and criminal justice 
system to services that are equipped to meet their needs.
    The IOM Report complements numerous other recent reports and 
initiatives by governmental and nongovernmental entities that have 
drawn attention to the problems of commercial sexual exploitation and 
sex trafficking of minors, and suggested strategies for addressing 
these problems, thus providing a timely opportunity to address these 
problems in the health and education sectors as well as other settings.
    Thank you for the opportunity to present this testimony.

    Senator Hagan. Thank you, Ms. English.
    Ms. Littrell.

STATEMENT OF JENEE B. LITTRELL, ASSISTANT PRINCIPAL, GROSSMONT 
        UNION HIGH SCHOOL DISTRICT, SAN DIEGO COUNTY, CA

    Ms. Littrell. Thank you, Senator Hagan, Senator Enzi, and 
the other members of the committee here today. My name is Jenee 
Littrell, and I'm currently an assistant principal at an 
alternative school in Grossmont Union High School District. I 
have spent my entire career developing and implementing 
programs and services to address the social and emotional needs 
of students, especially the most vulnerable, and working to 
create policies, services, and learning environments that 
support the physical and emotional safety of all students.
    For the past 6 years, much of my focus and attention, both 
personally and professionally, has been on the issue of child 
sex trafficking. It is an honor to be here today to testify 
about the prevention and early identification work that we have 
done in Grossmont Union High School District.
    Schools can and should be safe havens for students, and 
even more so for some whose lives are otherwise characterized 
by instability and lack of safety or security. In these cases, 
school personnel are uniquely well-positioned to identify and 
report suspected abuse and connect students to services, 
actions that can prevent trafficking and even save lives.
    Everyone who is part of the school community--
administrators, teachers, bus drivers, maintenance personnel, 
food service workers, resource officers and others--has the 
potential to be an advocate for child victims of human 
trafficking. First they must learn the indicators of the crime, 
its warning signs, and how to respond when a student is an 
apparent victim.
    Along with our partners, law enforcement, child welfare, 
and social services, we have developed a program to accomplish 
the above task. Our program includes four key components: No. 
1, increase staff awareness and education on the indicators and 
nature of the crime; No. 2, increase student awareness of the 
risks and realities of trafficking; No. 3, clearly articulated 
district policy and protocol for identifying a suspected victim 
or responding to a disclosure from a suspected; and, No. 4, 
strong working partnerships with law enforcement, child 
welfare, probation, and social services.
    In February 2008, committed to the concept of effective 
interagency information sharing, our community worked with Dr. 
Bernie James, Pepperdine law professor and nationally 
recognized expert, to create an information sharing agreement. 
This agreement allowed for sharing of information across our 
systems and helped us to identify our first student victim of 
child sex trafficking.
    Since that time, our partnership has identified countless 
victims and survivors of child sex trafficking, and we have 
educated and protected numerous potential victims. We have 
learned the magnitude and scope of the problem is greater than 
any one of our systems realized, and it is definitely more 
challenging than any one system can address alone.
    We have also learned that schools play a critical role in 
protecting students and need the proper training and support in 
order to do so. Beginning in the fall of 2010, we developed a 
comprehensive staff training for all school personnel about the 
dynamics of child sex trafficking, the scope of the crime, 
warning signs, campus impact, and a clearly defined course of 
action on how to respond.
    Along with our partners, we developed a protocol for 
response when a staff member confirms or suspects a student is 
a trafficking victim. We have trained our counselors on how to 
provide trauma specific services and when to bring in outside 
experts to support a student impacted by sex trafficking.
    We have also partnered with national and local experts to 
develop a prevention curriculum for students. Most importantly, 
we developed cross system mechanisms and infrastructure for 
collaboration among public agencies and other stakeholders 
while building upon the successes and structures, processes and 
relationships already in place.
    In closing, I would like to share actual quotes from sex 
trafficking survivors when asked their opinion about how 
schools should address this issue.

          ``I know that my teacher knew that something was 
        wrong with me. On a few occasions, she saw me getting 
        out of my pimp's car before school. I would catch her 
        looking at me as if she was trying to figure out what 
        to do with me. I wish she had done something.
          ``Watch it and address it. We know you are aware it's 
        happening.
          ``Educate all staff about the warning signs. If I 
        knew I had someone to turn to, I would have done so.
          ``Don't give up on us when we get in trouble. Work 
        with us to figure out why things are happening.''

    Student victims need schools across the Nation to be 
trained on identification and response. In many cases, the 
adults on campus are the last responsible adults to touch these 
young people's lives before they are victimized or lost to this 
crime.
    Thank you for the opportunity to speak today, and I look 
forward to your questions.
    [The prepared statement of Ms. Littrell follows:]
                Prepared Statement of Jenee B. Littrell
                                summary
    The International Labor Organization estimated in 2012 that 
children represented 26 percent (or 5.5 million) of the 20.9 million 
victims worldwide.\1\ Both U.S. citizen and foreign national children 
are trafficked for sex and labor in the United States.\2\ In fact, many 
child victims of human trafficking are students in the American school 
system. School administrators and staff need to be aware that cases of 
child trafficking are being reported in communities throughout the 
Nation. No community--urban, rural, or suburban--school, socioeconomic 
group, or student demographic is immune.
---------------------------------------------------------------------------
    \1\ International Labour Organization, ILO Global Estimate of 
Forced Labour 2012: Results and Methodology. Geneva, Switzerland: 
International Labour Organization, 2012. Available at http://
www.ilo.org/global/topics/forced-labour/publications/WCMS_182004/lang-
de/index
.htm/.
    \2\ U.S. Department of State, Trafficking in Persons Report 2013. 
Available at http://www.State.gov/j/tip/rls/tiprpt/2013/.
---------------------------------------------------------------------------
    Few crimes are more abhorrent than child trafficking, and few are 
more challenging for communities to recognize and address. For many 
people, the reality of trafficking in their community is difficult to 
comprehend, let alone confront. For educators and school personnel, the 
reality of these crimes and the severity of their impact are cause for 
a call to action.
    Schools can and should be safe havens for students, and even more 
so for some whose lives are otherwise characterized by instability and 
lack of safety or security. In these cases, school personnel are 
uniquely well-positioned to identify and report suspected abuse and 
connect students to services--actions that can prevent trafficking and 
even save lives. Everyone who is part of the school community--
administrators, teachers, bus drivers, maintenance personnel, food 
service staff, resource officers, and others--has the potential to be 
an advocate for child victims of human trafficking, but, first, they 
must learn the indicators of the crime, its warning signs, and how to 
respond when a student is an apparent victim.
    Some pragmatic concerns contribute to most communities' ambivalence 
in mounting an aggressive child trafficking prevention effort. Schools 
are often caught in that confusion. Increased awareness and provision 
of services are invaluable, but there are limited resources to support 
child trafficking victims and other at-risk students. How should 
education, social services, and child welfare systems prevent child 
sexual exploitation and provide safety for a student who has been 
trafficked? How should schools evaluate whether or not their response 
is effective? These are questions that school districts need to 
confront as they develop a response to the crime.
    Schools have several responsibilities regarding child trafficking. 
They must: (1) increase staff awareness and educate staff on the 
indicators and the nature of the crimes; (2) increase parent and 
student awareness of the risks and realities of trafficking; (3) 
develop and clearly articulate district- or school-wide policies on and 
protocols for identifying a suspected victim or responding to a 
disclosure from a suspected victim; and (4) develop and foster working 
partnerships with law enforcement, child welfare, probation and social 
service agencies.
                                 ______
                                 
    Thank you Senator Hagan, Senator Enzi and the other members of the 
committee present today for the opportunity to speak. My name is Jenee 
Littrell and I currently work as an assistant principal at an 
alternative school in Grossmont Union High School District. I have 
spent my entire career developing and implementing programs and 
services to address the social/emotional needs of students, especially, 
the most vulnerable and working to create policies, services and 
learning environments that support the physical and emotional safety of 
all students. For the past 6 years, much of my focus and attention--
both personally and professionally--has been on the issue of child sex 
trafficking and it is an honor to be here today to testify about the 
prevention and early identification work that we have done in Grossmont 
Union High School District.
    Schools can and should be safe havens for students, and even more 
so for some whose lives are otherwise characterized by instability and 
lack of safety or security. In these cases, school personnel are 
uniquely well-positioned to identify and report suspected abuse and 
connect students to services--actions that can prevent trafficking and 
even save lives. Everyone who is part of the school community--
administrators, teachers, bus drivers, maintenance personnel, food 
service staff, resource officers, and others--has the potential to be 
an advocate for child victims of human trafficking, but, first, they 
must learn the indicators of the crime, its warning signs, and how to 
respond when a student is an apparent victim.
    Along with our partners--law enforcement, child welfare and social 
services--we have developed a program to accomplish the above task. Our 
program includes four key components: (1) increased staff awareness and 
education on the indicators and the nature of the crime; (2) increased 
parent and student awareness of the risks and realities of trafficking; 
(3) clearly articulated district policy and protocol for identifying a 
suspected victim or responding to a disclosure from a suspected victim; 
and (4) strong working partnerships with law enforcement, child 
welfare, probation and social service agencies.
    In February 2008, committed to the concept of an effective 
interagency information-sharing agreement that could transform how our 
district and partners serve families and students, we worked with Dr. 
Bernard James, Pepperdine law professor and nationally recognized 
expert in constitutional law and First Amendment rights, to guide the 
development of such a model. The document was signed by all relevant 
stake holders and within days the sharing of information across our 
systems, helped us to identify our first student victim of child sex 
trafficking. Since that time, our partnership has identified countless 
victims and survivors and educated and protected numerous potential 
victims. We have learned the magnitude and scope of the problem is 
greater than any one of our systems realized and it is definitely more 
challenging that any one system can address alone. We have also learned 
that schools play a critical role in protecting students and need the 
proper training and support in order to do so.
    Beginning in the Fall of 2010, we developed a comprehensive staff 
training for all school personnel about the dynamics of child sex 
trafficking, the scope of the crime, warning signs, campus impact and a 
clearly defined course of action on how to respond. Along with our 
partners, we developed a protocol for response when a staff member 
confirms or suspects a student is a trafficking victim. We have trained 
our counselors on how to provide trauma specific services and when to 
bring in outside experts to support a student impacted by sex 
trafficking. We have also partnered with national and local experts to 
develop a prevention curriculum for students and parents. Most 
importantly, we developed cross-system mechanisms and infrastructure 
for collaboration among public agencies and other stakeholders, while 
building upon the structures, processes, and relationships already in 
place.
    In closing, I would like to share actual quotes from sex 
trafficking survivors when asked their opinion about how schools should 
address this issue.

    <bullet> ``I know that my teacher knew that something was wrong 
with me. On a few occasions she saw me getting out of my pimp's car 
before school. I would catch her looking at me as if she was trying to 
figure out what to do with me. I WISH SHE HAD DONE SOMETHING!''
    <bullet> ``Watch it and address it!! We know you are aware it's 
happening.''
    <bullet> ``Educate all school staff about the warning signs. If I 
knew I had somewhere to turn, I would have done so.''
    <bullet> ``Don't give up on us when we get in trouble. Work with us 
to figure out why things are happening.''

    Student victims need schools across the Nation to be trained on 
identification and response. In many cases, the adults on campus are 
the last responsible adults to touch these young people's lives before 
they are victimized or lost to this crime.
    Thank you again for the opportunity to be here today.

    Senator Hagan. Thank you, Ms. Littrell.
    Ms. Twohey.

  STATEMENT OF MEGAN TWOHEY, INVESTIGATIVE REPORTER, THOMSON 
                     REUTERS, NEW YORK, NY

    Ms. Twohey. Thank you, Chairwoman Hagan and Ranking Member 
Enzi, for inviting me to testify today.
    Starting in 2012, I began examining what are called 
disrupted adoptions, cases in which parents conclude they 
cannot successfully raise an adopted child. During my research, 
I discovered a clandestine online world where some of these 
parents solicited new families for children they no longer 
wanted.
    In internet forums on Yahoo and Facebook, the posts from 
these parents were striking. ``I'm totally ashamed to say it, 
but we do truly hate this boy,'' one woman wrote of the 11-
year-old son she had adopted from Guatemala. ``I would have 
given her away to a serial killer I was so desperate,'' said 
another parent of her adopted daughter.
    These parents weren't simply venting. They were actively 
offloading children. It's called private re-homing, a term 
first used by people seeking new homes for their pets. What we 
didn't know, what no one knew, was how often this was happening 
and what had become of the children who were given away.
    Because parents handled the custody transfers privately, 
often with strangers they met online and often through nothing 
more than a notarized power of attorney, no government agency 
was involved and none were investigating the practice. The 
Federal Government estimates that, overall, about 10 percent to 
25 percent of adoptions fail. No authority systemically tracks 
what happens to children after they are adopted domestically or 
internationally.
    To quantify the frequency of re-homing, we conducted a deep 
dive on one of the online forums where this activity was taking 
place. We meticulously examined more than 5,000 messages posted 
on the Yahoo bulletin board going back 5 years, and we built a 
data base to help us process our findings. We discovered that 
over that 5-year period, in this one forum alone, a child was 
offered to strangers on an average of once a week.
    The activity spanned the Nation. Children in 34 States had 
been advertised. Many were transferred from parents in one 
State to families in another. At least 70 percent were said to 
have been adopted overseas. Many were said to suffer from 
physical and emotional and behavioral problems.
    It was clear from the online descriptions of these children 
that they were among society's most vulnerable. Child abuse 
experts pointed out that their backgrounds and the manner in 
which they were advertised made them ripe for exploitation.
    Beyond the data base, we pieced together more than a dozen 
cases of re-homing. I traveled around the country, gathering 
records and interviewing parents and adoptees. These are three 
examples of what I found.
    After determining that the 10-year-old boy she adopted out 
of the foster care system was too troubled to keep, a Wisconsin 
mother solicited a new family for him on a Yahoo group. ``I 
couldn't stand to look at him anymore,'' she told me, ``and I 
wanted this child gone.'' Within hours of posting the 
advertisement, the mother handed the boy off in a hotel parking 
lot to a woman whose biological children had been permanently 
removed from her care and to a man who is now in prison for 
child pornography.
    This couple, living in Illinois at the time, drove the boy 
home with them with the Wisconsin mother having no idea who 
they really were. She had no idea that the Illinois woman's 
children had been removed after officials determined she 
suffered severe psychiatric problems, as well as violent 
tendencies, or that the man had an affinity for young boys that 
he would later share with an undercover agent in a pedophile 
chat room. The woman believed their assurances that they were 
good people with good intentions.
    In another case, a Russian girl named Inga thought her 
adoption by an American couple would bring a world of 
happiness. ``My picture was, I'm going to have family, I'm 
going to go to school, I'm going to have friends,'' Inga, now 
27, told me. Less than a year after bringing Inga home, her 
adoptive parents gave up trying to raise her. They turned to 
the internet and sent Inga to three different homes over the 
course of 6 months. None wanted to keep her. In one home, Inga 
said she suffered physical abuse. In another, she said the 
father molested her.
    Inga was sent to a Michigan psychiatric facility at the age 
of 13 after her adoptive parents refused to take her back. 
Officials characterized Inga's troubles this way: substance 
abuse, domestic violence, separation from parents, sexual 
abuse, physical abuse, emotional abuse, verbal abuse, 
attachment issues, and mental health issues. To Inga, the 
situation seemed bleak. ``My parents didn't want me. Russia 
didn't want me. I didn't want to live,'' she told me.
    Another girl, Nita, was adopted from Haiti at 13. She told 
me she also suffered suicidal thoughts, as she was passed among 
four families within 2 years. The first family to take Nita 
lived in Ohio. She says she was 1 of 33 children and that the 
environment was chaotic. The third family abruptly sent her 
away after Nita helped bring to light allegations of sexual 
abuse against other children in the home. Now 18, Nita says the 
feelings of abandonment took a toll. In addition to suicidal 
thoughts, she also developed an eating disorder.
    Many of the young people I interviewed told me that they 
had felt voiceless and alone. Few had found anyone to advocate 
on their behalf.
    Why does re-homing happen? Parents who offer their children 
told us they had few options as they tried to raise children 
with many behavioral problems. Adoption agencies refused to 
help, residential treatment centers were expensive, and some 
parents feared they would be charged with abuse or neglect if 
they tried to relinquish their child to the State.
    To be sure, many of the people who take these children in 
are competent and compassionate caretakers. As our 
investigation showed, re-homing also has allowed abusers and 
others who escape scrutiny to easily obtain children.
    What are the obligations of these websites on which these 
re-homing forums have taken place? It depends on who you ask. 
When I informed Yahoo of the activity I saw on Yahoo user 
groups, the company swiftly took down the sites. Facebook, by 
contrast, allowed a similar forum to continue operating after 
we exposed it.
    Is re-homing legal? The answer is complicated. No State or 
Federal laws specifically prohibit re-homing. Some States 
restrict the advertising and custody transfers of children, but 
those laws are confusing, frequently ignored, and rarely 
prescribe criminal sanctions.
    Since our investigation, at least four States--Wisconsin, 
Louisiana, Colorado, and Florida--have enacted new restrictions 
on child advertising, custody transfers, or both. The sponsor 
of the Wisconsin bill called re-homing, ``a gaping hole that 
allows children to be placed in unsafe situations with 
dangerous and sometimes life-threatening outcomes.''
    In terms of a Federal response, the congressional Research 
Service issued a report recommending ways Congress could 
restrict re-homing. And as you know, the Government 
Accountability Office will begin studying State and Federal 
policies related to re-homing this summer.
    At the request of Senator Ron Wyden, four Federal 
departments have been meeting to identify ways to address re-
homing. Senator Wyden expressed shock that advertising children 
online does not seem to violate any Federal laws.
    Some child advocates say a Federal law should place uniform 
restrictions on advertising of children and require that all 
custody transfers of children to non-relatives be approved by a 
court. They say differing State responses aren't adequate to 
address what is largely an interstate practice. Other advocates 
are seeking more government support for struggling adoptive 
families and more scrutiny of prospective adoptive parents.
    Thank you for the opportunity to talk about this issue. 
Unfortunately, I can only give voice to some of the young 
people affected by this practice. There remain many unaccounted 
re-homed children whose whereabouts are unknown.
    [The prepared statement of Ms. Twohey follows:]
                  Prepared Statement of Megan Twohey*
                                summary
    In 2012, I discovered a clandestine world where desperate parents 
sought new families for children they adopted but no longer wanted. The 
parents connected through online forums on Yahoo and Facebook, 
privately arranging custody transfers with strangers met on the 
internet. It's called ``private re-homing,'' a term first used by 
people seeking new homes for their pets. Because parents handled the 
custody transfers privately, and often through nothing more than a 
notarized power of attorney, no government agency was involved and none 
was investigating the practice.
---------------------------------------------------------------------------
    * Author Of ``The Child Exchange'' http://www.reuters.com/
investigates/adoption/.
---------------------------------------------------------------------------
    In a single Yahoo message board alone, over a 5-year-period, a 
child was offered to strangers on average once a week. The activity 
spanned the Nation: Children in 34 States had been advertised. Many 
were transferred from parents in one State to families in another. At 
least 70 percent had been adopted from overseas, and many were said to 
suffer from physical, emotional or behavioral problems. Child abuse 
experts pointed out that their backgrounds--and the manner in which 
they were advertised--made them ripe for exploitation.
    After concluding she could no longer care for him, a Wisconsin 
mother posted an advertisement on a Yahoo group for her 10-year-old 
adopted son. Hours later, she handed the boy off in a hotel parking lot 
to a woman whose biological children had been permanently removed from 
her custody and to a man who is now in prison for child pornography.
    Parents who turned to these internet sites told us they had few 
options as they tried to raise children with many behavioral problems. 
Adoption agencies refused to help. Residential treatment centers were 
expensive. Some parents feared they would be charged with abuse or 
neglect if they relinquished their child to the State. To be sure, many 
people who take in these children are competent and compassionate 
caretakers. As our investigation showed, re-homing also has allowed 
abusers and others to easily obtain children without any public 
oversight.
    After I informed Yahoo of the activity I saw on Yahoo user groups, 
the company swiftly took the sites down. Facebook, by contrast, allowed 
a similar forum to continue operating after we exposed it. In 
explaining why, a company spokesperson told me that,

          ``the internet is a reflection of society, and people are 
        using it for all kinds of communications and to tackle all 
        sorts of problems, including complicated issues such as this 
        one.''

    No State or Federal laws specifically prohibit re-homing. Some 
States restrict the advertising and custody transfers of children, but 
those laws are confusing, rarely prescribe criminal sanctions and are 
frequently ignored. An agreement among the 50 U.S. States called the 
Interstate Compact on the Placement of Children, or ICPC, is meant to 
ensure that child welfare authorities oversee custody transfers, review 
prospective parents and account for what happens to children sent from 
one State to another. Many law-enforcement officials told me they had 
never heard of the compact.
    Since our investigation, at least four States--Wisconsin, 
Louisiana, Colorado and Florida--have passed new restrictions on child 
advertising, custody transfers or both. The congressional Research 
Service issued a report recommending ways Congress could restrict re-
homing. The Government Accountability Office will begin studying the 
issue this summer. Four Federal departments have been meeting to 
identify ways to address re-homing.
    Some child advocates say a Federal law should place uniform 
restrictions on the advertising of children and require that all 
custody transfers of children to non-relatives be approved by a court. 
They say differing State responses aren't adequate to address what is 
largely an interstate practice. Other advocates are seeking more 
government support for struggling adoptive families and more scrutiny 
of prospective adoptive parents.
                                 ______
                                 
    Good morning. My name is Megan Twohey and I'm a journalist at 
Reuters, based in New York City.
    Thank you Chairwoman Hagan, Ranking Member Enzi and other members 
of the subcommittee for inviting me to testify today.
    Starting in 2012, I began examining what are called disrupted 
adoptions--cases in which parents conclude they cannot successfully 
raise an adopted child. During my research, I discovered a clandestine 
online world where some of these parents solicited new families for 
children they no longer wanted.
    In internet forums on Yahoo and Facebook, the posts from these 
parents were striking: ``I am totally ashamed to say it but we do truly 
hate this boy!'' one woman wrote of the 11-year-old son she had adopted 
from Guatemala. ``I would have given her away to a serial killer, I was 
so desperate,'' said another parent of her adopted daughter.
    These parents weren't simply venting. They were actively offloading 
children. It's called '`private re-homing,'' a term first used by 
people seeking new homes for their pets.
    What we didn't know--what no one knew--was how often this was 
happening, and what had become of the children who were given away.
    Because parents handled the custody transfers privately, often with 
strangers they met online, and often through nothing more than a 
notarized power of attorney, no government agency was involved and none 
was investigating the practice. The Federal Government estimates that, 
overall, ``about 10 to 25 percent'' of adoptions fail, but no authority 
systemically tracks what happens to children after they are adopted 
domestically or internationally.
    For 18 months, Reuters sought to document the illicit custody 
transfers in the black market for adopted children.
    To quantify the frequency of re-homing, we conducted a deep dive 
into one of the online forums where this activity was taking place. We 
meticulously examined more than 5,000 messages posted on the Yahoo 
bulletin board going back 5 years and we built a data base to help us 
process our findings.
    We discovered that over this 5-year period, in this one forum 
alone, a child was offered to strangers on average once a week. The 
activity spanned the Nation: Children in 34 States had been advertised. 
Many were transferred from parents in one State to families in another. 
At least 70 percent had been adopted from overseas, and many were said 
to suffer from physical, emotional or behavioral problems.
    It was clear from the online descriptions of these children that 
they were among society's most vulnerable. Child abuse experts pointed 
out that their backgrounds--and the manner in which they were 
advertised--made them ripe for exploitation.
    Beyond the data base, we pieced together more than a dozen cases of 
re-homing. I traveled around the country, gathering records and 
interviewing parents and adoptees.
    These are three examples of what I found:

    After determining that the 10-year-old boy she adopted out of the 
foster care system was too troubled to keep, a Wisconsin mother 
solicited a new family for him on a Yahoo group. ``I couldn't stand to 
look at him anymore,'' she told me. ``I wanted this child gone.'' 
Within hours of posting the advertisement, the mother handed the boy 
off in a hotel parking lot to a woman whose biological children had 
been permanently removed from her care and to a man who is now in 
prison for child pornography. This couple, living in Illinois at the 
time, drove the boy home with them, with the Wisconsin mother having no 
idea who they really were. She had no idea the Illinois woman's 
children had been removed after officials determined she suffered 
``severe psychiatric problems'' as well as ``violent tendencies.'' Or 
that the man had an affinity for young boys that he would later share 
with an undercover agent in a pedophile chat room. This woman believed 
their assurances that they were good people with good intentions. 
Months later, a former counselor to the boy insisted the Wisconsin 
mother take him back. When he returned, the boy told her he had spent 
much of his time away with the Illinois man now in prison for child 
pornography.
    In another case, a Russian girl named Inga thought her adoption by 
an American couple would bring a world of happiness. ``My picture was, 
I'm gonna have family, I'm gonna go to school, I'm gonna have 
friends,'' Inga, now 27, told me. Less than a year after bringing Inga 
home, her adoptive parents gave up trying to raise her. They say the 
adoption agency never told them that Inga struggled to read or write, 
that she suffered from depression and post-traumatic stress disorder, 
that she smoked. The parents say they tried therapy and support groups. 
They even reached out to a Russian judge to undo the adoption. When 
nothing worked, they turned to the internet, and sent Inga to three 
different families over the course of 6 months. None wanted to keep 
her. In one home, Inga says she had sex with a sibling and suffered 
physical abuse. In another, she says the father molested her. Inga was 
sent to a Michigan psychiatric facility at the age of 13 after her 
adoptive parents refused to take her back. Officials characterized 
Inga's troubles this way:

          ``substance abuse, domestic violence, separation from 
        parents, sexual abuse, physical abuse, emotional abuse, verbal 
        abuse, attachment issue and mental health issues.''

    To Inga, the situation seemed bleak: ``My parents didn't want me. 
Russia didn't want me. I didn't want to live.''
    Another girl, Nita Dittenber, was adopted from Haiti at 13. She 
told me she also suffered suicidal thoughts, as she was passed among 
four families within 2 years. Her adoptive mother in Idaho solicited 
new parents for her on a Yahoo group, citing behavioral problems and a 
bad attitude.
    The first family to take Nita lived in Ohio. She says she was one 
of 33 children and that the environment was chaotic. The second family 
lived in Twin Falls, but that too was a bad fit. The third family 
abruptly sent her away after Nita helped bring to light allegations of 
sexual abuse against other children in the home. Now 18, Nita says the 
feelings of abandonment took a toll. In addition to suicidal thoughts, 
she developed an eating disorder.
    Many of the young people I interviewed told me they had felt 
voiceless and alone. Few had found anyone to advocate on their behalf.
    Why does re-homing happen?
    Parents who offered their children on the internet told us they had 
few options as they tried to raise children with many behavioral 
problems. Adoption agencies refused to help. Residential treatment 
centers were expensive. Some parents feared they would be charged with 
abuse or neglect if they tried to relinquish their child to the State.
    And who are the people who take the children in?
    To be sure, many of them are competent and compassionate 
caretakers. As our investigation showed, re-homing also has allowed 
abusers and others who escape scrutiny to easily obtain children.
    What are the obligations of the websites on which these re-homing 
forums have flourished?
    Depends on who you ask. After I informed Yahoo of the activity I 
saw on Yahoo user groups, the company swiftly took the sites down. 
Facebook, by contrast, allowed a similar forum to continue operating 
after we exposed it. In explaining why, a company spokesperson told me 
that,

          ``the internet is a reflection of society, and people are 
        using it for all kinds of communications and to tackle all 
        sorts of problems, including complicated issues such as this 
        one.''

    Is re-homing legal? The answer is complicated.
    No State or Federal laws specifically prohibit re-homing. Some 
States restrict the advertising and custody transfers of children, but 
those laws are confusing, frequently ignored and rarely prescribe 
criminal sanctions.
    An agreement among the 50 U.S. States called the Interstate Compact 
on the Placement of Children, or ICPC, is meant to ensure that child 
welfare authorities oversee custody transfers, review prospective 
parents and account for what happens to children sent from one State to 
another. Many law-enforcement officials told me they had never heard of 
the compact.
    Since our investigation, at least four States--Wisconsin, 
Louisiana, Colorado and Florida--have enacted new restrictions on child 
advertising, custody transfers or both.
    The sponsor of the Wisconsin bill called re-homing ``a gaping 
loophole'' that allows children to be ``placed in unsafe situations 
with dangerous and sometimes life-threatening outcomes.'' A Florida 
State senator called re-homing ``a sick thing.''
    In terms of a Federal response, the congressional Research Service 
issued a report recommending ways Congress could restrict re-homing. 
And as you know, the Government Accountability Office will begin 
studying State and Federal policies related to re-homing this summer.
    At the request of U.S. Senator Ron Wyden, four Federal departments 
have been meeting to identify ways to address re-homing. Senator Wyden 
expressed shock that advertising children online ``does not seem to 
violate any Federal laws.''
    Some child advocates say a Federal law should place uniform 
restrictions on the advertising of children and require that all 
custody transfers of children to non-relatives be approved by a court. 
They say differing State responses aren't adequate to address what is 
largely an interstate practice.
    Other advocates are seeking more government support for struggling 
adoptive families and more scrutiny of prospective adoptive parents.
    Thank you for the opportunity to talk about this issue. 
Unfortunately, I can only give voice to some of the young people 
affected by this practice. There remain many unaccounted re-homed 
children whose whereabouts are unknown.

    Senator Hagan. Thank you.
    I thank all of you for your testimony. Now we'll begin a 
series of questions. We'll take 8 minutes per Senator.
    Ms. Chang, from the personal stories that Ms. Twohey shared 
concerning the re-homing, it seems that families feel that they 
have nowhere to turn when their adopted child requires a 
different amount of support and services beyond their skill 
set. Can you tell me what HHS can do to share information about 
trauma-informed care with adoptive parents and frontline 
workers, including healthcare providers and educators?
    Ms. Chang. Yes. Thank you, Senator. There's a lot that we 
can do to share information about what is effective in helping 
families who have adopted children provide evidence-based 
intervention that has been successful in helping deal with 
children with social and emotional behavioral needs.
    I do think it's important to point out, however, that most 
adoptive families, many of whom struggle with some of the same 
issues, do not feel like this is a choice that they would ever 
have to make. They do go and seek and find assistance for their 
children, and most adoptive families and relative caregivers as 
well as foster parents are loving families who really do 
provide for their children.
    Senator Hagan. Certainly. Obviously, we're talking about 
those situations where the stories that we've heard this 
morning and have read about are on the other end of that 
spectrum.
    Ms. English, from the reports that you described, one of 
the challenges is often the lack of data and the lack of 
evidence that would inform the work of the Federal, State, and 
local governments trying to address child trafficking. What can 
be done to improve the evidence gathering, the data collection, 
so that the Federal, State, and local policymakers can better 
address this problem? Also, I'm concerned about what the 
healthcare providers and school personnel can do to help 
overcome the challenges of the victims being afraid to disclose 
their stories.
    Ms. English. Thank you, Senator. The IOM committee 
identified a number of different ways in which data gathering 
can be improved. I'll say at the outset that there are several 
different kinds of data that need to be gathered and evidence 
that needs to be built. First of all, we do need more data 
about who the children are who are being exploited and 
trafficked so that we can tailor identification tools and 
prevention strategies specifically to those who are at greatest 
risk.
    Senator Hagan. Can you give an example?
    Ms. English. The committee, while it said that trying to 
refine a national prevalence estimate was probably not the most 
appropriate strategy, conducting research on specific 
subpopulations of youth is something that could be supported by 
the Federal Government and would enhance the development of 
appropriate prevention tools and identification tools.
    In addition, we do not have evidence-based tools for 
identification and training. There are a few examples of 
training efforts and tools for identification that are 
promising, but we need much more evaluation of those and other 
tools.
    For example, in Houston, there are training efforts 
underway. In Atlanta, there are specific child-oriented 
training efforts that have been implemented by a nonprofit or 
coalition and the Governor's office. The Polaris Project, which 
is a nationally funded project, has an online training 
initiative.
    But all of those efforts could benefit from further 
evaluation. Similarly, some of the tools that have been 
developed by places like Asian Health Services in Oakland and 
other healthcare organizations and sites would benefit from 
evaluation so that they could be taken to scale and used in 
other settings.
    Senator Hagan. Thank you.
    Ms. Littrell, you actually have set up a program, and you 
said shortly after you set it up with coordination between 
different groups, you actually helped identify your first 
victim. Can you talk about how successful this program has been 
at your school? What recommendations would you make to other 
school districts? What advice would you give them? Then, to 
wrap it up, how can the Federal Government help support the 
program that you've put in place at your school?
    Ms. Littrell. Sure. Thank you for the opportunity to 
clarify. Actually, we developed an information sharing 
agreement, which was with our school district, six other school 
districts, child welfare, probation, and three law enforcement 
agencies.
    Senator Hagan. Six other school districts.
    Ms. Littrell. Correct. Once we developed that information 
sharing agreement, that's when we immediately identified our 
first survivor of sex trafficking, because now all of the 
partners were at the same table. All the stakeholders, all the 
agencies that were working with the same families were now able 
to talk openly and collaborate and understand what part we were 
seeing in relation to the whole.
    Senator Hagan. One other point. Obviously, these are 
children, so this is all private information that is not 
public.
    Ms. Littrell. Correct. It's what we're seeing in schools, 
as well as what the probation officer might be seeing with one 
of our students, as well as child welfare. We're all touching 
that young person's life, but we weren't discussing openly and 
collaborating in a way to help us understand what it was we 
were seeing. Once we developed that information sharing 
agreement, that's when we were first able to identify what was 
happening systemically, at least in our community and what I've 
now discovered across the Nation, as child sex trafficking.
    Once law enforcement really alerted us to the prevalence, 
the scope, and age which you discussed earlier that this was 
happening, we started moving into action. We as a school 
district did not want to wait until it was happening in our 
schools. We wanted to be at the front line and to keep this off 
of our campus.
    We know schools are where we just represent and reflect 
what's happening in the community. Unfortunately, with this 
happening in the community, it's also happening to our 
students. Because of that, we worked with our partners, the 
experts, to create a systemic, comprehensive training for all 
of our administrators, our campus supervisors, and our nurses.
    What we discovered through research as well as our own 
experience was that, disproportionately, this was happening to 
children in the foster care system, children with disabilities. 
We made sure those relevant staff were trained, not only on 
warning signs, but what to do. We know that our staff and 
schools are----
    Senator Hagan. Why don't you walk me through a situation of 
what to do?
    Ms. Littrell. If a teacher suspects that they have a 
student that might be trafficked, they understand some of the 
warning signs. They then bring that concern to a staff member, 
typically a counselor who has received more in-depth training 
on how to engage a potential victim, how to actually have 
discussions to hopefully have that victim feel comfortable in 
disclosing what's happening.
    We've trained our administrators so when they are--as in 
the situation you shared earlier, when they're engaged with the 
student and, in the case you shared, they're wearing a 
backpack, and they discovered some lingerie--when we're doing 
some of the standard businesses on campuses, we discover 
different warning signs and flags.
    So if we suspect we have a victim, we work with that 
student as best as we can. We determine if we actually have a 
larger campus issue--if this student is being trafficked, if 
there's other students, if maybe the exploiter is approaching 
that student to and from school, we then, depending on the 
situation, work with communicating that to the parent or 
guardian.
    We work with law enforcement, hopefully, so that student 
will feel comfortable to share the information regarding the 
exploiter with law enforcement. We make sure that that student 
and family are getting the appropriate services in the 
community and oftentimes on campus. That way, we can keep--
disproportionately the female students that I'm talking about, 
that we can keep her connected to a campus.
    Senator Hagan. Thank you. My time is up.
    Ms. Twohey, I'll get you on the next round.
    Senator Enzi.
    Senator Enzi. Thank you, Madam Chairman. This has been 
fascinating. Reading the testimony was also very interesting 
and, of course, in a lot more detail.
    Ms. Chang, in your testimony you mentioned adoption 
disruptions and adoption dissolutions. Can you explain the 
difference between those two terms for me?
    Ms. Chang. Sure, Senator. Typically, when we talk about 
adoption disruptions, we think about what happens during the 
process leading up to an adoption. We think about children in 
foster care. The process to be adopted can take up to 2 years 
in some instances. Sometimes during that process of moving 
toward adoption finalization, there may be a disruption that 
prevents that adoption from being finalized. It may be due to 
the child's behavior, needs that a parent decides they aren't 
equipped to handle.
    Other times, adoption dissolution refers typically to after 
an adoption has taken place. That may be a foster adoption, an 
overseas adoption, a domestic adoption. For whatever reason, a 
parent decides that they are no longer able to care for that 
child, and so we talk about that as an adoption dissolution.
    Senator Enzi. Thank you.
    Ms. English, you mentioned that health providers have some 
protections on abuse, but the same protections were not 
available for trafficking. Could you elaborate on that a little 
bit more?
    Ms. English. Thank you, Senator Enzi. What I was intending 
to clarify was that healthcare professionals are accustomed to 
identifying children who have been victims of child abuse and 
also victims of domestic violence, and that those protocols and 
identification tools could be useful in developing similar 
tools for the identification of victims of trafficking.
    You have, however, raised an issue which is of great 
significance, and that is that healthcare professionals are 
currently mandated to report instances of child abuse to child 
welfare and/or law enforcement authorities. There is some lack 
of clarity in the laws around whether child sex trafficking is 
or is not included within that mandated reporting.
    In some States, mandated reporting extends only to abuse 
that takes place by a family member or a caretaker and not by a 
third party. In some States, however, it does extend to third 
parties. A small number of States have begun to enact specific 
provisions to include child sex trafficking within their child 
abuse reporting laws.
    There's also some concern on the part of healthcare 
professionals that if they report young people who have been 
victims of sexual exploitation and trafficking, that may 
contribute to the distrust and reluctance that those young 
people have to disclose their victimization to the healthcare 
professionals that are treating them.
    Senator Enzi. Thank you.
    Ms. Littrell, in your plan, your point No. 2 was educating 
parents and students on risks and realities. How do you go 
about doing that? Is there reaction from the community against 
that kind of discussion?
    Ms. Littrell. There's obviously a concern from the 
community when you're talking about their children and the 
potential harm of their children being sex trafficked. That's 
where our partnerships are really important. We in the schools 
work with law enforcement, as I shared earlier.
    Law enforcement are really the experts on what is happening 
in our local community. What does the recruitment look like? 
What gangs are involved in this? How is the exploited youth 
being victimized? Is it online? Is it in certain pockets of the 
community?
    We as the schools partner with law enforcement in hosting 
public awareness events and hosting some educational 
opportunities to alert--what the warning signs are, what the 
risks are, how to best protect their children. Then we, in the 
schools, are ready to take any reports if they have concerns 
and if they are worried about either their child or even one of 
their child's friends or other classmates.
    We felt really, really strongly that the best thing for us 
to do in schools is to be alerted and educated so that wherever 
we receive a referral, whether it's law enforcement or a family 
coming forward or a student disclosure, we're ready to move to 
action and we're able to help that young person immediately.
    Senator Enzi. Thank you.
    Ms. Twohey, this re-homing is kind of a new thing to, I'm 
sure, to a lot of people. It's something pretty new to me. Is 
re-homing limited to adoptive families, or did you find 
examples of people re-homing their own kids?
    Ms. Twohey. That's a great question. What I can tell you is 
that the manner by which people re-home children is not 
something that would be limited to adopted children. Anybody 
can basically, in most States, turn over a child to a stranger 
met on the internet with nothing more than a notarized power of 
attorney saying the child is now in this stranger's custody, 
whether it's for months or until the child turns 18. People 
could do that with an adopted child. People could do that with 
a biological child.
    What I found--you know, we examined re-homing. We 
investigated it for 18 months and basically combed these 
internet forums where children were being advertised, and I 
didn't find a single offer of a child--of a parent offering a 
biological child. It was primarily people who had adopted 
children from foreign countries and also people who had adopted 
children from the foster care system.
    Senator Enzi. Do you have any suggestions for people 
adopting kids from foreign countries as a result of your 
investigation?
    Ms. Twohey. As a journalist, my job is to collect the facts 
and report them. What other people--in the course of doing my 
reporting, certain things came out with regard to international 
adoption. This is an area that had been largely unregulated 
until 2008 when there were the first Federal regulations of 
some international adoptions that took effect. Those 
regulations said that in order to adopt, you had to undergo 10 
hours of training if you wanted to adopt a kid from certain 
foreign countries. For many of the other international 
adoptions, there was no training requirement.
    I talked to people who had adopted children from foreign 
countries and hadn't really undergone any real preparation. 
Contrast that with the training that's required if you want to 
adopt a child out of the foster care system. That can be dozens 
of hours of training. And as I understand it, sometimes people 
undergo that training and say, ``You know what? I've got a good 
hard look at what's in store, and I can't move forward.''
    So one of the things that has come up is the training 
requirements, in terms of the quality and quantity of training 
that's required, and also the support that's available for 
struggling adoptive families when their adoptions go south, 
both internationally and domestically.
    Senator Enzi. Thank you. My time has expired. I'll cover a 
little bit more on the training and resources, next round.
    Senator Hagan. Thank you.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Madam Chair.
    Ms. Twohey, you talked a little bit about the fact that 
States are starting to amend their laws to provide some greater 
protection. Can you talk about what you have found in your 
research to be the beginnings of best practices at the State 
level when it comes to protecting these children? One of the 
easy things that would seem to be a common sense requirement 
would be that the family has to go to court in order to get 
authorization to move a child that they had to go through the 
custody process in the first place to get.
    So what have you found to be the best ways that States can 
start to amend their laws to deal with this issue?
    Ms. Twohey. You're correct. The child welfare system has 
been largely regulated by individual State laws. In the course 
of my reporting, I discovered that in some States, there are 
restrictions on who can go on the internet and advertise a 
child for adoption or another type of custody transfer. Some 
States say you have to have--a licensed agency has to do that 
advertising of the child to ensure that there's oversight of 
those involved. In other States, there are no restrictions on 
the advertising of children.
    I would also point out that a lot of these State laws on 
the advertising of children, I believe, have assumed that the 
children being advertised are newborns, you know, young moms 
who don't want to keep their child and want to put the child up 
for adoption right after it's born. I don't think that those 
laws basically were crafted with the understanding that in 
2014, you'd have people advertising children who are 12 years 
old or 14 years old. The States vary when it comes to the 
advertising of children and also the custody transfers of 
children.
    There are now States that have, since our series came out 
in September, enacted new restrictions on the custody transfers 
of children saying if you're going to transfer--I mean, this is 
another situation where you've had--the State laws were such 
that they assumed if you were going to transfer custody of a 
child, say, through a notarized power of attorney, to another 
person while you were going off for military service or going 
into the hospital, that you'd be doing that to a trusted 
relative or a close friend of the family.
    I don't think that those State laws basically took into 
account that in 2014 you'd have people transferring custody of 
their child to a stranger that they met on the internet. Now 
you've got some States saying,

          ``Well, listen, if you're going to transfer custody 
        of a child to a non-relative for longer than a year, 
        you have to go through the court and make sure that 
        there's oversight of that.''

    So those are two of the things that are now springing up at 
the State level as a way to address this. As I said, there are 
other people--child advocates have pointed out that this 
patchwork of varying State laws is never going to adequately 
protect children, and that you need a Federal law that's going 
to require uniform advertising standards and regulation of 
custody transfers.
    Senator Murphy. Ms. Chang, let me ask that question of you. 
Your testimony references the fact that most or all of this law 
is at the State level. That certainly makes sense to the extent 
that re-homing is happening over the internet, that it's 
crossing State borders. That necessitates, even requires, a 
Federal response. What do you think about that suggestion?
    Ms. Chang. I certainly agree with Ms. Twohey that the 
situation of re-homing by adoptive parents is something that 
most lawmakers never anticipated. If we think about the rights 
of parents to care for their children and make decisions about 
where they will live, where they will be placed, I don't think 
anyone anticipated this.
    I certainly think there's a lot of confusion about what 
legal custody or power of attorney documents even mean, what 
kind of responsibility that confers, and what responsibilities 
parents have to maintain. I think guidance from the Federal 
level about this new type of situation is certainly important.
    Senator Murphy. We talked about the fact that there are 
plenty of situations in which biological parents end up 
transferring custody of their children for a variety of 
reasons. There's no oversight of that at the Federal or at the 
State level. Is there a reason to treat adopted children 
differently than biological children when it comes to the 
transfer of custody?
    Ms. Chang. I don't think so. It's really important for all 
of us to remember that a child who has been adopted is a part 
of that family now, and they should be treated by the family 
and by law in the same way. The question is how we can best 
protect children from parents who may place them in a dangerous 
situation. That's the question we have to think about. I don't 
think we want this situation to lead us to treat adoptive 
families, including parents and children, differently.
    Senator Murphy. What do you make of Ms. Twohey's 
investigation, which suggests that there is a differential in 
terms of how they're treated, that in all of the cases she 
found about the online advertising of children for re-homing, 
not a single one of them was a biological child? I certainly 
understand your argument, which suggests that, given the 
expectations that we have of adoptive families, we certainly 
have an interest in avoiding a double standard.
    But it suggests that for a subset, and probably a very 
small subset of adoptive parents, there may be a different 
standard. What do you think about the evidence that she has 
uncovered as to the rate of adoptive versus biological parents 
that are advertising on the internet?
    Ms. Chang. It's hard for me to say, because I don't know 
what the mindset was of these folks making these poor 
decisions. I do think that, obviously, when they adopted a 
child, they did not take that responsibility of becoming a 
parent in the way that it was intended. So certainly, It's 
important for laws to be clear about how children--when they're 
placed outside of a parent's home, what types of laws and 
regulations should guide that.
    That should be equally true--just because it didn't happen 
in this instance, in this investigation, doesn't mean that it's 
not possible. The fact that parents, whether they're adoptive 
or not, aren't clear that this is not appropriate behavior says 
we need to talk about this as a society. I think that the 
creation of tools like the internet that allow people to share 
information in this way that promotes that that may be 
acceptable means that we need, as a society, to respond to that 
and be very clear that this, in fact, is not appropriate 
behavior.
    Senator Murphy. You mentioned in your testimony that you 
are encouraging States to review their laws. Are you providing 
them with recommendations as to how to change their laws?
    Ms. Chang. In the information memorandum that I referenced, 
we don't have specifics in that. We are certainly providing 
technical assistance and guidance to States and having 
conversations with them. It's still early in the process of 
seeing what States are doing. As Ms. Twohey referenced, there 
are four States that have changed their laws. We are also in 
the process of learning what might be best in how to respond to 
this.
    Senator Murphy. I hope that you'll keep open the 
possibility of having a specific standard for the transfer of 
custody of adopted children. I think you're right that we 
should approach this carefully, and we certainly want to be 
careful not to adopt differing standards. If the evidence 
suggests that the problem is specific to adopted children, then 
it may be that we need to tailor our response to that group of 
children as well.
    Thank you, Madam Chair.
    Senator Hagan. Thank you, Senator Murphy.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Madam Chair, thank you for this hearing. 
We're grateful for this opportunity to talk about a whole range 
of issues. I wasn't here for the testimony, but I've become 
familiar with some of the work and the testimony that our 
witnesses have provided today.
    I wanted to focus on this in a broad way--I've worked very 
hard in this area to bring more attention to these issues, the 
gaps in our child welfare system, the problems we have. I have 
legislation entitled the, ``Speak Up To Protect Every Abused 
Kid Act'', and it's really to focus on this problem that we 
have where we have varying degrees of what mandated reporters 
must do, in some ways a multiplicity of standards instead of 
having one Federal floor on who should constitute a mandated 
reporter to report instances of child abuse or suspected 
instances. All of this comes under a broad umbrella, but I was 
particularly disturbed, as we all are, by some of the issues 
that you've all raised in your testimony.
    I will start with Associate Commissioner Chang. When you 
have a delegation of authority in these instances, do you have 
the possibility, or have you seen in your work, that the child 
will have legal problems down the road? Is that something 
you've spoken to already today, or is that something that you 
haven't been asked about?
    Ms. Chang. Thank you, Senator. It isn't something that I've 
spoken to. Certainly, in our look into this process of 
delegating authority, that question does come up. One of the 
things that's troubling is that there is such variation among 
States about what that delegation of authority actually means, 
what responsibilities carry. We know that when we have legal 
guardianship, that does come with certain delegations of 
authority, and that comes with responsibilities as well.
    A lot of what we are talking about is often done kind of 
outside the scope of legal scrutiny and authority. So there is 
a question that rises. If you don't go through the court 
process to get legal guardianship of a child, what 
responsibilities do you then have for that child? It is 
something that States really need to think very carefully 
about.
    Senator Casey. On the subject of States, in your 
experience, have you seen whether or not many States have acted 
to expand access to post-adoption services following these 
reports of private re-homing?
    Ms. Chang. That's a great question. We know that before the 
story came out approximately half of all States have reported 
to us that they do regularly offer post-adoption services, not 
only to children who have been adopted out of the foster care 
system, but also those who have been adopted through private 
adoptions or internationally. The challenge remains that there 
are very limited dollars available to States to use to support 
post-adoption services.
    Another way to think about post-adoption really is 
prevention, right? These are services that are designed to help 
parents who are struggling with their children, whether they're 
adopted or biological. The reality is that in our child welfare 
system, we do not invest as much in preventive services as we 
do after the crisis occurs. This is a real challenge across all 
States.
    Senator Casey. I was going to get in a moment to some of 
your suggestions that you may have already outlined, but some 
of them bear repeating at a hearing like this. Are there any 
cases that you're aware of where parents re-homing their 
children are then criminally prosecuted? What are the basic 
metrics on that in terms of criminal prosecution?
    Ms. Chang. Sure. It's a great question. It's one of the 
questions I asked Ms. Twohey after I read her article, and it's 
one of the reasons, actually, that we issued our information 
memorandum, because there seems to be confusion among child 
welfare agencies about whether or not what these parents were 
doing even constituted abuse and neglect.
    When we looked at the minimum Federal definition of abuse 
and neglect, it seemed clear to us that this behavior fell 
within that scope. We wanted to make clear to States that that 
is how we saw these acts and they needed to take a careful look 
at their State laws to ensure that they were responding 
adequately.
    This is particularly important, because if a parent is 
deemed to have abused or neglected their child because they 
engaged in re-homing, that means that they're going to be in 
the abuse and neglect registries. If they try to go out and 
adopt again, that will then be a notice to any private adoption 
agency as well as public child welfare agencies about the 
behavior of this parent, and we think that's critical.
    Senator Casey. I might have one question for Ms. Twohey, 
but I want to allow the panel to go one by one, if you choose 
to, in terms of the recommendations you have for next steps. 
Often we have hearings and we explore an issue at great length, 
and then we sometimes forget to come back and say, ``What are 
the two or three steps you hope we would take?'' Sometimes the 
recommendations do something here but don't push on this end.
    Is there anything the panel would want to offer in terms of 
steps you hope would result from this hearing, especially, 
obviously, Federal legislation or action?
    Ms. English. Thank you, Senator Casey. I would like to see 
coming out of a hearing like this guidance from the Federal 
Government to States, but also to other entities at the State, 
local, and in the private and commercial sector about the kinds 
of evaluation that needs to take place of existing training and 
tools for the healthcare and education systems, but also the 
development of further models, and looking toward the child 
abuse and the domestic violence arenas for a basis for 
developing those models.
    So to the extent that the Federal Government can provide 
standards and guidance and, ultimately, funding for evaluation 
and development of models, that would be a great step forward.
    Senator Casey. So guidance rather than unfunded mandates. 
Thank you.
    Yes, Ms. Littrell.
    Ms. Littrell. I would like to make two suggestions. One, 
there's 15,000 school districts in our Nation. While education 
is a State responsibility, the Federal Government has done a 
lot of leadership in the area of human trafficking, whether 
it's the Blue Campaign--we've worked with the Department of 
Education to write an educator's guide that will be distributed 
in the fall to schools across the Nation--but anything that we 
can do to incentivize or mandate for schools to make this a 
requirement, as has been discussed by our other panel members.
    It's very confusing for mandated reporters--and we know all 
educators are mandated reporters--of what to do when they 
suspect a child is a trafficking victim and what actions should 
be taken after that. That goes to my next point--anything that 
we can do in the area of grant funds or supports so communities 
can rally together, cross jurisdictionally, cross disciplines, 
to really figure out what's happening in their community and 
what should happen in their community.
    For us, it was a Safe Schools-Healthy Students grant that 
really allowed for this initiative to begin. We've completely 
sustained it, even though we lost the funds 5 years ago when 
they sunsetted--so anything that you can do to encourage this 
and then maybe also provide some financial support.
    Senator Casey. Thank you.
    Ms. Twohey.
    Ms. Twohey. Once again, as a journalist, I can't share my 
opinion. I can only share the facts as I've gathered them. I 
think that in terms of what can be done to address re-homing, 
specifically, you're looking at sort of two things. One, what 
can be done to prevent it?
    On that front, you're looking at perhaps more scrutiny of 
prospective adoptive parents, the quantity and quality of 
training requirements for families who want to adopt. That's 
one of the things that experts and other child advocates have 
brought up, as well as the support services for struggling 
adoptive families. Those two things could really help prevent 
re-homing.
    Then you move on to the question of what happens when 
families decide that they are going to privately re-home. And 
there, you're looking at what right now is a patchwork of State 
laws with regard to the advertising of children and the custody 
transfers of children. There aren't any uniform standards on 
how children can and should be advertised in print or, 
specifically, online. There aren't any uniform standards in 
this country on what should happen when somebody decides they 
want to transfer custody of a child to a stranger that they 
meet on the internet.
    The congressional Research Services report pointed out that 
Congress does have an opportunity to act, that the interstate 
aspect of re-homing and the fact that the internet is involved 
presents Congress and the Federal Government with an 
opportunity to step in, and that's something that child 
advocates have called for.
    Senator Casey. Thanks very much.
    Thank you, Madam Chair.
    Senator Hagan. Senator Casey, thank you for your questions 
and for your bill that you are also working on similar to this 
issue.
    Ms. Twohey, I wanted to get back to you. Did you actually 
have any of the parents that you might have spoken with in your 
research--did any of them receive charges of neglect or abuse 
in their advertising?
    Ms. Twohey. That is a great question. I've been looking at 
this issue for more than 2 years now and have covered a variety 
of cases in which adoptive parents re-homed their child, and 
cases that were either prior to my reporting brought to the 
attention of authorities certainly came to the attention of 
authorities after my story. Not in one single case has an 
adoptive parent been charged with abuse or neglect or any 
criminal charge as a result of their re-homing activity.
    In some States where there are restrictions--and this 
includes in States where there are laws that do restrict 
advertising of children and the custody transfers of children--
lots of times, local law enforcement has said that they didn't 
know that those laws existed, and if they did exist, they 
didn't have criminal sanctions attached to them. They didn't 
feel like they could take action.
    Senator Hagan. Thank you.
    Ms. Littrell, in your school system and in the six 
districts you work with, have you had any cases of the re-
homing that you're aware of?
    Ms. Littrell. Not that I'm aware of, no.
    Senator Hagan. I know that in many instances, Ms. Littrell, 
grandmothers end up taking over custody--not really custody, 
but raising their grandchildren because the daughters are in 
bad situations. In that case, it's my understanding that the 
school systems need to have a power of attorney in that case.
    In your situation, I would think that you would have 
grandmothers that are responsible for their grandchildren. Can 
you elaborate on that? Do you know what the school actually 
requires of a grandparent? Then I'll give you the other 
question.
    Ms. Littrell. Sure. We actually have a variety of different 
family members who are raising family members for the whole 
range of reasons. What we require is proof that that parent or 
guardian has the legal right to register that student.
    Senator Hagan. Which is what piece of paper?
    Ms. Littrell. It's any kind of court order, and it can be 
as simple as a caregiver affidavit, where the parent--I'm 
sorry--in this case, a grandparent or aunt or whomever actually 
just has to sign and let us know that that parent has an 
affidavit and is saying that they are the legal guardian for 
the student in order to be able to register them.
    Senator Hagan. That affidavit is not court sanctioned.
    Ms. Littrell. Correct.
    Senator Hagan. In many cases, some people are concerned 
that if we go through the process of requiring court approval 
on any case where they're raising the children, that if it's 
not immediate family that it has to be court approved, that 
there are so many situations where that would prevent family 
members or friends from stepping in and helping. At the same 
time, we've seen unbelievable examples of what you all have 
described today of what happens when there's advertisement, or 
whomever might be the responsible person in this situation 
really cannot help that young child and then, obviously, 
numerous things happen.
    Ms. Chang, do you have any suggestions on what States or 
school systems need to require in this situation?
    Ms. Littrell, you also.
    Ms. Chang.
    Ms. Chang. Sure. We feel very strongly that State laws need 
to be clear about what the parent's responsibility is, even if 
they do transfer legal custody, and that is the care and 
protection of their child. Seventeen States have defined 
abandonment within their definition of neglect, and 17 other 
States have defined it separately from neglect.
    Thinking about a parent who might temporarily place a child 
with a friend because they're going overseas to serve in the 
U.S. military--but you would still expect that that parent has 
a relationship with that child, that they stay in touch with 
that child. They regularly communicate, and they are ultimately 
responsible for having placed that child in a safe, appropriate 
placement.
    That's one of the immediate things that we want to make 
sure States are thinking about. Are they clear in their law 
about what a parent's responsibility is to make sure that that 
initial placement is safe and that they are maintaining regular 
contact.
    Senator Hagan. Ms. Littrell.
    Ms. Littrell. Under McKinney-Vento, we actually have 
removed some of the barriers that have historically been there. 
If an unaccompanied youth walks in our doors, we will work with 
him or her to get them registered immediately. If a family 
presents forward, and they are homeless, and they don't have 
any documentation, or if they're even--if that's the story that 
they're telling us, that they're homeless, and they don't have 
documentation, we will immediately get that student registered, 
again, following the McKinney-Vento laws.
    Senator Hagan. Ms. Twohey, were there any cases where you 
spoke to parents and they had gone through training through 
their adoption agency on what they could do to improve the 
situation? Or do you know if they actually sought help before 
they began advertising their children?
    Ms. Twohey. That's a great question. Some of the parents 
felt like they--some of the parents had undergone training. 
Others had undergone very little training. In all these cases, 
the parents felt like they weren't prepared for the emotional 
behavioral problems that these children brought with them.
    Senator Hagan. But then did they get training once these 
emotional behavioral problems came forward? Did they then go 
seek training and help and assistance?
    Ms. Twohey. In some cases, they sought therapy. In other 
cases, they did have interface with the child welfare system, 
and they often felt like they got no help and that if they 
wanted to relinquish their child to the State, they were going 
to face--they would potentially face charges of abuse or 
neglect.
    One family didn't want to pay the child support that would 
be required to relinquish their adopted daughter to the 
government child welfare system. They were told if they did 
this, they would have to pay child support until the child 
turns 18, and the adoptive family didn't want to do that.
    Senator Hagan. Thank you.
    Senator Enzi.
    Senator Enzi. Thank you, Madam Chairman. This has been very 
enlightening, and there have been some good suggestions for 
some things that we can do at the Federal level. One of the 
things I always worry about--in my years of legislating, I've 
noticed that if it's worth reacting to, it's sometimes worth 
over-reacting to. There are some State concerns out there, I'm 
sure.
    Ms. Littrell, how important is it for the local districts 
to have some flexibility in developing these plans that you 
had?
    Ms. Littrell. There are definitely some best practices that 
should be followed across the Nation. How a school district 
works with their local law enforcement, their local 
stakeholders, will really depend on what is present in their 
community. Rural communities may not have the same level of 
resources or the same number of resources as, say, urban 
communities.
    How recruitment and how trafficking happens in one 
community also varies a little bit. As I worked with the 
Department of Ed to write the guide for the Nation on 
addressing sex trafficking in schools, what I found was, 
actually, there's a lot of commonalities. It's much more 
similar than dissimilar--the recruitment, the grooming, and 
what needs to happen in a community.
    Having said that, best practices, should be offered to 
communities. Some kind of guidance for who should be at the 
table and what steps should be taken could definitely assist 
those communities from having to reinvent the wheel or start at 
ground zero.
    Senator Enzi. Very good. I look forward to seeing that 
report, too.
    Ms. English, in your testimony, you cited the Oakland 
Unified School District as a good example. Can you give us a 
little more detail on what that school district is doing?
    Ms. English. Yes. Thank you, Senator Enzi. The Oakland 
Unified School District has partnered with the school-based 
health center that is operated by the Alameda County Health 
Department to provide both training to individuals in the 
school setting to begin identifying young people who are 
victims of sexual exploitation and trafficking and also to 
provide services, including referrals for any students who are 
identified as being either at risk or victimized by sexual 
exploitation and trafficking.
    Alameda County is one place in the Nation that has 
developed some really fairly advanced services for the victims 
of sexual exploitation and trafficking, and the Unified School 
District has partnered with local community resources to learn 
from those practices and to share them within the school 
district and also to make sure that their students get referred 
to appropriate services when they're identified.
    Senator Enzi. Thank you. I'm the accountant in the Senate, 
and I have a tendency to ask some detailed number questions. 
I've learned not to do that in hearings. I hope that we'll have 
an opportunity to submit some questions in writing so that we 
can get some of the numbers that might help with the testimony 
that we've had.
    Senator Hagan. Certainly, I thank you.
    Senator Enzi. Thank you.
    Senator Hagan. Thank you, Senator Enzi.
    Ms. Littrell, I have one further question for you. In your 
experience with the situations of child trafficking, has law 
enforcement actually indicted a trafficker in one of your 
situations?
    Ms. Littrell. Multiple times.
    Senator Hagan. Good. Very good.
    I want to thank all of our witnesses for being here today, 
for traveling here, for your testimony, for your involvement in 
both the child trafficking issue and then the re-homing issue 
that has been brought to light.
    Thank you to you, Ms. Twohey.
    We have heard from all of you. We have heard these issues, 
specifically concerning our children, and they are such serious 
problems. They are taking place right now, right here in our 
communities and in our country, all across every State and, 
obviously, to our children.
    I want to also thank the many groups and the many 
individuals who contributed their experience and their 
expertise to this hearing. In particular, I want to thank the 
North Carolina Coalition Against Sexual Assault, the On Eagles' 
Wings Ministries in Charlotte, the Salvation Army in Raleigh, 
the Saint Joseph's School in Brooklyn, NY, and the Alliance to 
End Slavery and Trafficking, and the victims, obviously, the 
victims of both trafficking and re-homing that have been 
interviewed by my staff.
    These are serious issues, and I do think there are numerous 
examples of what our States are doing to combat these issues 
and to work best within our current agencies to help not only 
the parents but, obviously, the victims, and then the 
coordination between the schools, the healthcare professionals, 
and our law enforcement to bring to justice the individuals who 
are committing these trafficking acts, and then to really treat 
the young people who are being trafficked as victims and not 
criminals.
    This hearing will remain open for 10 business days after 
today for any other Senators to submit questions to you, to 
submit statements for the record. Once again, I appreciate 
everybody's time and attention to this very important issue.
    This meeting is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                    Office of the Attorney General,
                                         State of Illinois,
                                                      July 7, 2014.

Hon. Kay Hagan, Chairwoman,
Subcommittee on Children and Families,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Chairwoman Hagan: I am writing to commend you on your decision to 
bring much-needed attention to the practice of ``re-homing'' by holding 
a hearing on the matter. Illegal acts of re-homing are very dangerous 
for children, and it is critical that we do everything we can to 
prevent them from happening. Last year, my office took steps to stop 
this terrible practice after learning about it through the 
investigative reports published by Reuters.
    As part of this effort, I urged both Yahoo! and Facebook to ensure 
their websites are not used as meeting places for individuals 
attempting to re-home their children. It was clear from the 
investigative reports that these websites made it possible for 
individuals interested in re-homing to connect. In order to prevent re-
homing in the first place, both companies must take this issue 
seriously. While my office can, and will, take action against 
individuals who engage in illegal acts of re-homing, the damage to the 
children has likely already occurred when my office becomes involved.
    For your review, I have enclosed the correspondence between my 
office and both Yahoo! and Facebook, in case this information is 
helpful for you and your subcommittee as it examines and works to 
prevent re-homing. Your hearing is an important step in this effort. If 
you or your staff has any questions, please contact Erik Jones, my 
office's policy director, at (312) 814-3873.
            Sincerely,
                                              Lisa Madigan.
                                 ______
                                 
  Correspondence Between the Office of the Attorney General, State of 
                        Illinois and Yahoo! Inc.
                    Office of the Attorney General,
                                         State of Illinois,
                                                  October 28, 2013.
Marissa Meyer,
CEO, President and Director,
Yahoo! Inc.,
701 First Avenue,
Sunnyvale, CA 94089.

    Dear Ms. Meyer: Last month, Reuters published a series of articles 
documenting an extremely troubling practice known as ``re-homing,'' 
where parents used the internet to find strangers willing to take their 
children on a permanent basis. The placements documented in the 
articles occurred outside the adoption laws of any State and with very 
little, if any, oversight conducted by the parents, making them very 
dangerous for the children involved.\1\
---------------------------------------------------------------------------
    \1\ The Child Exchange: Inside America's Underground Market for 
Adopted Children (Sep. 9, 2013).
---------------------------------------------------------------------------
    The articles noted that your company's website was used to host at 
least one group apparently dedicated to facilitating placements such as 
these. Because these placements can be very dangerous for the children 
involved, I am writing to request that your website not host groups 
facilitating this type of conduct.
    Although the specific circumstances documented in the articles 
differed in varying degrees, a similar, dangerous pattern emerged in 
each account. Stressed, overwhelmed parents of adopted, foreign-born 
children decided that they could no longer care for their children. 
Rather than seek support from established social service agencies and 
work through the proper legal channels, they chose to operate outside 
of the laws designed to protect children. They located groups on the 
internet discussing ``re-homing'' children and after posting the 
equivalent of advertisements for their children, or reading 
advertisements posted by individuals interested in taking children, 
these parents found individuals, often hundreds of miles from their 
homes, who would take their children. With no oversight and no 
background checks, these parents then abandoned their children by 
permanently leaving them with people they had recently met through the 
internet.
    The actions of these parents are clear violations of the law in 
every State, as it is illegal. to place a child in a home in another 
State without first notifying the appropriate officials of that State 
and complying with the other requirements of the Interstate Compact on 
the Placement of Children (ICPC). Every State in the country has 
ratified the ICPC. In ratifying it, the States recognized that children 
should receive ``the maximum opportunity to be placed in a suitable 
environment'' and that, to achieve that goal, the appropriate 
authorities in a State where a child is placed need a ``full 
opportunity to ascertain the circumstances of the proposed placement.'' 
\2\ Based on the Reuters series, the individuals facilitating ``re-
homing'' arrangements via the internet are not notifying the 
appropriate child welfare authorities and, consequently, are violating 
the law in any State where the conduct occurs.
---------------------------------------------------------------------------
    \2\ Interstate Compact on Placement of Children Act, 45 ILCS 15/1 
(2013).
---------------------------------------------------------------------------
    I understand the difficulty your company faces as it balances 
freedom of speech protections with the equally important challenge of 
limiting troubling content. Yet, in cases such as these, where illegal 
acts of ``re-homing'' are occurring, or likely to occur, there is no 
justification for allowing this conduct to continue unabated on Yahoo.
    Yahoo can serve as a resource and outlet for stressed parents, 
whether they are parents of adopted or biological children. However, 
providing a place for parents to share their concerns and frustrations 
is different than providing a means for parents to abandon their 
children in a manner that violates the legal framework designed to 
protect children.
    I urge you to take steps to ensure that illegal acts of ``re-
homing'' have no place on Yahoo. To better understand your company's 
approach to combating illegal acts of ``re-homing,'' I ask that you 
provide answers to the following questions by Friday, November 15.

    1. Has your company taken any steps to ensure your website is not 
used to facilitate illegal acts of ``re-homing''? If so, what were 
those steps?
    2. In the past 2 years, has your company discovered, or been made 
aware of, Yahoo users facilitating illegal ``re-homing'' arrangements 
through Yahoo's website? If so, what was your company's response?
    3. Are violations of the Interstate Compact on the Placement of 
Children also violations of Yahoo's user agreement? Are violations of 
State child endangerment laws also violations of Yahoo's user 
agreement?
    4. Does your company have a policy on whether Yahoo users are 
allowed to use Yahoo to facilitate child placement arrangements that 
are illegal acts of ``re-homing,'' or likely to be illegal acts of 
``re-homing''?

    Illegal ``re-homing'' arrangements can place children in grave 
danger. I appreciate your attention to the role internet companies can 
play to ensure these situations are prevented in the future and that 
children are safe. If you have any questions, please contact Erik 
Jones, policy director and assistant attorney general for my office, at 
(312) 814-3873.
            Sincerely,
                                              Lisa Madigan.
                                 ______
                                 
                                       Yahoo, Inc.,
                                               Sunnyvale, CA 94089,
                                                 November 15, 2013.
Hon. Lisa Madigan,
Attorneys General,
State of Illinois,
100 West Randolph Street,
Chicago, IL 62706.

    Dear General Madigan: Thank you for contacting Yahoo regarding the 
practice of ``re-homing'' and inquiring as to our policies and 
practices in this matter. Be assured that Yahoo shares your concerns 
and looks forward to working with your office on addressing this 
practice.
    Let me be clear that Yahoo strictly enforces our terms of service 
and acts expeditiously to address illegal activity on our network. In 
the specific case of Re-homing as reported in the Reuters article, upon 
receiving notice we moved quickly to remove the sites in question from 
Yahoo Groups. Additionally, we became aware of a small number of 
additional Re-homing sites, beyond the one mentioned in the Reuters 
article, and have blocked access to those as well.
    Yahoo believes that it is important to maintain an environment of 
trust and safety on our properties. The practice of rehoming--and the 
sites in question--promotes the dissemination of potentially harmful 
content, in so far as it allows children to be placed in homes without 
any chance for background checks or procedures to insure the child's 
safety. As such, we felt well within the scope of our user ToS, to take 
down the sites due to the presence of harmful content.

    Question 1. Has your company taken any steps to ensure your website 
is not used to facilitate illegal acts of ``re-homing?'' If so, what 
were those steps?
    Answer 1. We take the safety of our users very seriously. We 
empower our users to report abusive or harmful content or individuals 
through ``Report Abuse'' buttons, and we have teams of people who 
review these flags and take appropriate action pursuant to our ToS. We 
also provide information about using the web and Yahoo products safely, 
including Yahoo Groups, on Yahoo Safely. Further, since learning of the 
Re-homing issue, we have educated our abuse team on the issue in order 
to promote internal awareness on how to handle the reports of such 
groups.

    Question 2. In the past 2 years, has your company discovered, or 
been made aware of, Yahoo users facilitating illegal ``re-homing'' 
arrangements through Yahoo's website? If so, what was your company's 
response?
    Answer 2. When we were first made aware of the initial report of 
re-homing, we carefully reviewed the sites and took them down after 
determining that the groups violated our ToS. We will continue to 
review subsequent reports and take appropriate action based on our ToS 
and Yahoo Groups Community Guidelines. lf we find that any of these 
Groups contain similar content, we will take down the sites.

    Question 3. Are violations of the Interstate Compact on the Place 
of Children also violations of Yahoo's user agreement? Are violations 
of State child endangerment laws also violations of Yahoo's user 
agreement?
    Answer 3. Any violation of law is also a violation of our ToS which 
prohibits any user from ``intentionally or unintentionally violat[ing] 
any applicable local, State, national or international law.'' Such 
violations would also violate our ToS prohibition against using the 
service to ``harm minors in any way.''

    Question 4. Does your company have a policy on whether Yahoo users 
are allowed to use Yahoo to facilitate child placement arrangements 
that are illegal acts of ``re-homing,'' or likely to be illegal acts of 
``re-homing?''
    Answer 4. Yes, as our ToS prohibit any violations of applicable 
local, State, national or international law and using the service to 
harm minors in any way. Yahoo also reserves the right to terminate any 
user or group for any reason in its sole discretion, without notice, 
and at any time.
    Thank you again for contacting us regarding this important matter 
and we look forward to working with you closely on this issue in the 
future.
            Very truly yours,
                                             Bill Ashworth,
                              Senior Legal Director, Public Policy.
                                 ______
                                 
  Correspondence Between the Office of the Attorney General, State of 
                      Illinois and Facebook, Inc.
                    Office of the Attorney General,
                                         State of Illinois,
                                                  October 28, 2013.
Mark Zuckerberg,
Chairman and Chief Executive Officer,
1601 Willow Rd.,
Menlo Park, CA 94025.

    Dear Mr. Zuckerberg: Last month, Reuters published a series of 
articles documenting an extremely troubling practice known as ``re-
homing,'' where parents used the internet to find strangers willing to 
take their children on a permanent basis. The placements documented in 
the articles occurred outside the adoption laws of any State and with 
very little, if any, oversight conducted by the parents, making them 
very dangerous for the children involved.\1\
---------------------------------------------------------------------------
    \1\ The Child Exchange: Inside America's Underground Market for 
Adopted Children (Sep. 9, 2013).
---------------------------------------------------------------------------
    The articles noted that your company's website was used to host at 
least one group apparently dedicated to facilitating placements such as 
these. Because these placements can be very dangerous for the children 
involved, I am writing to request that you reverse a decision your 
company made regarding ``re-homing'' groups and ensure this practice 
never again finds a home on Facebook. A few weeks ago, in response to a 
question about a Facebook page dedicated to ``re-homing,'' a Facebook 
representative stated,

          ``that the internet is a reflection of society, and people 
        are using it for all kinds of communications and to tackle all 
        sorts of problems, including very complicated issues such as 
        this one.'' \2\
---------------------------------------------------------------------------
    \2\ Id.

    This response suggests your company is comfortable with its website 
being used to facilitate this illegal conduct.
    Although the specific circumstances documented in the articles 
differed in varying degrees, a similar, dangerous pattern emerged in 
each account. Stressed, overwhelmed parents of adopted, foreign-born 
children decided that they could no longer care for their children. 
Rather than seek support from established social service agencies and 
work through the proper legal channels, they chose to operate outside 
of the laws designed to protect children. They located groups on the 
Internet discussing ``re-homing'' children and after posting the 
equivalent of advertisements for their children, or reading 
advertisements posted by individuals interested in taking children, 
these parents found individuals, often hundreds of miles from their 
homes, who would take their children. With no oversight and no 
background checks, these parents then abandoned their children by 
permanently leaving them with people they had recently met through the 
internet.
    The actions of these parents are clear violations of the law in 
every State, as it is illegal to place a child in a home in another 
State without first notifying the appropriate officials of that State 
and complying with the other requirements of the Interstate Compact on 
the Placement of Children (ICPC). Every State in the country has 
ratified the ICPC. In ratifying it, the States recognized that children 
should receive ``the maximum opportunity to be placed in a suitable 
environment'' and that, to achieve that goal, the appropriate 
authorities in a State where a child is placed need a ``full 
opportunity to ascertain the circumstances of the proposed placement.'' 
\3\ Based on the Reuters series, the individuals facilitating ``re-
homing'' arrangements via the internet are not notifying the 
appropriate child welfare authorities and, consequently, are violating 
the law in any State where the conduct occurs.
---------------------------------------------------------------------------
    \3\ Interstate Compact on Placement of Children Act, 45 ILCS 1511 
(2013).
---------------------------------------------------------------------------
    I understand the difficulty your company faces as it balances 
freedom of speech protections with the equally important challenge of 
limiting troubling content. Yet, in cases such as these, where illegal 
acts of ``re-homing'' are occurring, or likely to occur, there is no 
justification for allowing this conduct to continue unabated on 
Facebook.
    Facebook can serve as a resource and outlet for stressed parents, 
whether they are parents of adopted or biological children. However, 
providing a place for parents to share their concerns and frustrations 
is different than providing a means for parents to abandon their 
children in a manner that violates the legal framework designed to 
protect children.
    I urge you to take steps to ensure that illegal acts of ``re-
homing'' have no place on Facebook. To better understand your company's 
approach to combating illegal acts of ``re-homing,'' I ask that you 
provide answers to the following questions by Friday, November 15.

    1. Has your company taken any steps to ensure your website is not 
used to facilitate illegal acts of ``re-homing''? If so, what were 
those steps?
    2. In the past 2 years, has your company discovered, or been made 
aware of, Facebook users facilitating illegal ``re-homing'' 
arrangements through Facebook's website? If so, what was your company's 
response?
    3. Are violations of the Interstate Compact on the Placement of 
Children also violations of Facebook's user agreement? Are violations 
of State child endangerment laws also violations of Facebook's user 
agreement?
    4. Does your company have a policy on whether Facebook users are 
allowed to use Facebook to facilitate child placement arrangements that 
are illegal acts of ``re-homing,'' or likely to be illegal acts of 
``re-homing''?

    Illegal ``re-homing'' arrangements can place children in grave 
danger. I appreciate your attention to the role internet companies can 
play to ensure these situations are prevented in the future and that 
children are safe. If you have any questions, please contact Erik 
Jones, policy director and assistant attorney general for my office, at 
(312) 814-3873.
            Sincerely,
                                              Lisa Madigan.
                                 ______
                                 
                                    Facebook, Inc.,
                                                 November 18, 2013.

Hon. Lisa Madigan,
Attorney General, State of Illinois,
Office of the Illinois Attorney General,
100 West Randolph Street,
Chicago, IL 60601.

    Dear General Madigan: I am writing in response to your letter 
regarding the practice of ``re-homing'' and whether or not it is 
promoted on Facebook. We appreciate your attention to this matter and 
commitment to protecting vulnerable children from the dangers that 
``re-homing'' can present.
    Over the past few weeks, your staff has been very helpful in 
pointing out your concern that social media may be used to facilitate 
``re-homing'' in a way that violates State law. Further, they have been 
clear that you are not requesting that Facebook, or any internet 
service, actively monitor the private messages of their users. This is 
an important tenet for our company, and we appreciate that you share 
our commitment.
    We do believe it is possible, though admittedly challenging, to 
balance rights to speech and privacy that our users are entitled to 
with our efforts to combat potentially harmful activities that people 
may promote online. To accomplish this, we have established what we 
believe to be a very sound Statement of Rights and Responsibilities 
(https://www.facebook.com/legal/terms) to which every user is expected 
to adhere. Included in this Statement is the agreement that users will 
not ``use Facebook to do anything unlawful . . . .'' Further, we are 
clear that if a user violates this Statement, Facebook can ``stop 
providing all or part of Facebook'' to the user.
    Of course, other than removing content from our site we are often 
limited in what we can do when we become aware of content people on 
Facebook may make available discussing illegal activity. Knowing this, 
we have implemented an online system for law enforcement that 
facilitates responding to legal process in a timely manner and provides 
law enforcement with a more efficient means of sending that legal 
process. To this end, if your office becomes aware of the illegal 
trading or selling of children, and has initiated legal process, please 
have law enforcement officials use this tool so that we may quickly 
respond to their requests. More information on our system and process 
can be found in our law enforcement guidelines (https://
www.facebook.com/safety/groups/law/guidelines/).
    In addition to your general concern regarding the practice of ``re-
homing'', your letter asked us to answer four questions. They are 
addressed below:

    Question 1. Has your company taken any steps to ensure your website 
is not used to facilitate illegal acts of ``re-homing?'' If so, what 
were those steps?
    Answer 1. We work very hard to ensure that illegal activity in 
general does not take place on Facebook including:

    Instituting a Real Name Culture--We've built a network based on 
authentic identity, so people are more likely to treat each other with 
respect. It is a violation of our policies to use a fake name or 
operate under a false identity.
    Developing Easy to Use Reporting Mechanism--There are ``Report'' 
links on virtually every Facebook page, and anyone in our community can 
block people who post hurtful content.
    Creating a Support Dashboard--Everyone should be able to know what 
happens to reports sent to Facebook. We've created a feature that lets 
people see whether or not their report has been reviewed and allows 
them to be notified when a decision is made.

    Question 2. In the past 2 years, has your company discovered, or 
been made aware of, Facebook users facilitating illegal ``re-homing'' 
arrangements through Facebook's website? If so, what was your company's 
response?
    Answer 2. Other than your request, we have located one law 
enforcement inquiry, from South America, requesting details of an 
account allegedly used to promote illegal adoptions in that region. We 
did not have the information to respond to that request. As we 
discussed, if people were discussing the activity in closed groups or 
in private messages, we would have no way of knowing about those 
communications unless they were reported to us. Clearly, with 1.3 
billion users, some people who use Facebook use Groups, both private 
and public, to discuss the challenges of parenting adopted children.

    Question 3. Are violations of the Interstate Compact on the 
Placement of Children also violation of Facebook's user agreement? Are 
violations of State endangerment laws also violation of Facebook's user 
agreement?
    Answer 3. Our Statement of Rights and Responsibilities section 3.4 
reads: ``You will not use Facebook to do anything unlawful, misleading, 
malicious, or discriminatory.'' Violations of law would be a violation 
of this Statement.

    Question 4. Does your company have a policy on whether Facebook 
users are allowed to use Facebook to facilitate child placement 
arrangements that are illegal acts of ``re-homing'' or likely to be 
illegal acts of ``re-homing?''
    Answer 4. We do not have specific policies regarding ``re-homing'' 
by name, and, as a private party service provider we are not always in 
a position to conclude what constitutes an illegal act under various 
laws. However, under our Statement of Rights and Responsibilities 
section 3.4, acts of illegal ``re-homing'' would not be allowed. Of 
course these questions are always challenging in that they require 
legal determination about what constitutes illegal ``re-homing.'' 
Obviously that is a decision that can only be made by you, others in 
law enforcement, and the courts.
    Again, thank you for bringing this matter to our attention. 
Ensuring the safety of our users is a priority at Facebook and, to that 
end, we stand ready to quickly respond to any warrants we receive 
pertaining to child endangerment (or other criminal) matters. We also 
look forward to continuing to work directly with your staff on this and 
a host of other important issues facing the people of Illinois.
            Sincerely,
                                    William D. Castleberry,
                                   Director of State Public Policy.
                                 ______
                                 
                    Office of the Attorney General,
                                         State of Illinois,
                                                   January 7, 2014.
William D. Castleberry,
Director of State Public Policy,
Facebook, Inc.,
1601 Willow Rd.,
Menlo Park, CA 94025.

    Dear Mr. Castleberry: I am writing in response to your November 18, 
2013, letter to Illinois Attorney General Lisa Madigan. While your 
letter provided some useful information regarding Facebook's practices, 
you failed to provide information on what specific steps, if any, the 
company has taken to combat ``re-homing.'' Additionally, your 
description of Facebook's role when determining whether a user's 
actions violate Facebook's ``Statement of Rights and Responsibilities'' 
was confusing. As a result, we are seeking additional clarification in 
both instances.
          specific actions taken in response to ``re-homing''
    In the October 28, 2013, letter to Mr. Zuckerberg, we asked if 
Facebook has ``taken any steps to ensure your website is not used to 
facilitate illegal acts of ``re-homing''? \1\ Your response noted that 
Facebook works ``very hard to ensure that illegal activity in general 
does not take lace on Facebook'' and described Facebook's overall 
efforts to combat illegal activity.\2\ These efforts included 
``Instituting a Real Name Culture,'' ``Developing Easy to Use Reporting 
Mechanism,'' and ``Creating a Support Dashboard.'' \3\ While these 
practices may help Facebook combat illegal activity generally, they are 
not specific steps taken to address ``re-homing.'' Thus, we ask that 
you provide an answer to whether Facebook has taken any steps designed 
specifically to address ``re-homing.''
---------------------------------------------------------------------------
    \1\ Letter from Illinois Attorney General Lisa Madigan to Mark 
Zuckerberg, Facebook Chairman and Chief Executive Officer (Oct. 28, 
2013).
    \2\ Letter from William Castleberry, Facebook Director of State 
Public Policy, to Illinois Attorney General Lisa Madigan (Nov. 18, 
2013).
    \3\ Id.
---------------------------------------------------------------------------
    In Yahoo's response to our office, the company referenced a number 
of specific steps to address ``re-homing.'' The company noted that: (1) 
it ``moved quickly to remove the [``re-homing''] sites in question from 
Yahoo Groups''; (2) it `` became aware of a small number of re-homing 
sites, beyond the one mentioned in the Reuters article, and . . . 
blocked access to those as well''; and (3) it ``educated [its] abuse 
team on the issue in order to promote internal awareness on how to 
handle the reports of such groups.'' \4\ Given this specific 
information from Yahoo, we ask that you provide responses to the 
following questions regarding Facebook's efforts to address ``re-
homing'':
---------------------------------------------------------------------------
    \4\ Letter from Bill Ashworth, Yahoo Senior Legal Director, Public 
Policy, to Illinois Attorney General Lisa Madigan (Nov. 15, 2013).

    (1) Has Facebook taken any steps similar to Yahoo's actions?
    (2) Has Facebook conducted searches of public posts to determine 
whether its website is being used to facilitate ``re-homing''?
    (3) Has your company made any effort to determine whether any 
Facebook Groups are being used to facilitate ``re-homing''?
    (4) Has Facebook trained employees on ``re-homing''?

    Unlike Yahoo's response, your response left our office with the 
impression that Facebook has not taken specific steps to determine 
whether its website is being used to facilitate ``re-homing.'' I am 
hopeful that you will consider your response an opportunity to 
alleviate this concern.
     facebook's view on violations of the statement of rights and 
                            responsibilities
    In the letter to Mr. Zuckerberg, we also asked if Facebook has a 
policy on whether Facebook users are allowed to use Facebook to 
facilitate child placement arrangements that are illegal acts of ``re-
homing''? \5\ While your response acknowledged that ``acts of illegal 
``re-homing'' would not be allowed,'' you also stated that Facebook, 
``as a private party service provider . . . [is] not always in a 
position to conclude what constitutes an illegal act under various 
laws.'' \6\ You also noted that decisions on what constitutes illegal 
``re-homing'' can ``only be made by [my office]; others in law 
enforcement, and the courts.'' \7\ This response has raised serious 
concerns about Facebook's views on ``re-homing.''
---------------------------------------------------------------------------
    \5\ Letter from Illinois Attorney General Lisa Madigan to Mark 
Zuckerberg, Facebook Chairman and Chief Executive Officer (Oct. 28, 
2013).
    \6\ Letter from William Castleberry, Facebook Director of State 
Public Policy, to Illinois Attorney General Lisa Madigan (Nov. 18, 
2013).
    \7\ Id.
---------------------------------------------------------------------------
    In response to the same question, Yahoo stated unequivocally that 
``re-homing'' is not allowed on its site. The company wrote:

          Yes, as our ToS prohibit any violations of applicable local, 
        State, national or international law and using the service to 
        harm minors in any way. Yahoo also reserves the right to 
        terminate any user or group for any reason in its sole 
        discretion, without notice, and at any time.\8\
---------------------------------------------------------------------------
    \8\ Letter from Bill Ashworth, Yahoo Senior Legal Director, Public 
Policy, to Illinois Attorney General Lisa Madigan (Nov. 15, 2013).

    Unlike Yahoo, your response suggests that Facebook would not take 
action unless law enforcement or courts determined that the specific 
conduct was ``illegal'' and informed Facebook of this determination. As 
you know, Facebook does not need approval from law enforcement or the 
courts to determine whether conduct on its website violates the 
company's ``Statement of Rights and Responsibilities.'' As a private 
company, Facebook can determine whether it will allow certain types of 
conduct on its website.
    We are concerned that, unlike Yahoo, Facebook has failed to State 
unequivocally that ``re-homing'' will not be tolerated on its website 
and that the company will stop Facebook users, as much as possible, 
from using the website to facilitate ``re-homing.'' If Facebook becomes 
aware that users are facilitating ``re-homing'' through Facebook, will 
the company put a stop to it? Unfortunately, your response left open 
the possibility that the company would not take action.
    Given the dangers to children stemming from ``re-homing,'' we ask 
that you provide our office with additional clarification of the 
actions Facebook has taken, and will take, to address ``re-homing.''
            Sincerely,
                                                Erik Jones,
                                           Director, Policy Bureau,
                                        Assistant Attorney General.
                                 ______
                                 
                                          January 21, 2014.

Hon. Lisa Madigan,
Attorney General, State of Illinois,
Office of the Illinois Attorney General,
100 West Randolph Street,
Chicago, IL 60601.

    Dear General Madigan: I am writing in response to your letter 
regarding the practice of ``re-homing'' and whether or not it is 
promoted on Facebook. We appreciate your attention to this matter and 
commitment to protecting vulnerable children from the dangers that 
``re-homing'' can present.
    Over the past few months, your staff has raised your concern that 
social media may be used to transfer children illegally across State 
lines in a dangerous way--a practice that may by described by the 
euphemism ``re-homing.'' Further, in raising those concerns, you also 
have made very clear that you are not requesting that Facebook or any 
Internet service actively monitor the private messages of their users. 
This is an important tenet for our company, and we appreciate that you 
share our commitment.
    The activity described by your office, where the guardianship of a 
child is transferred from one adult to another, in violation of the law 
(and often across State lines), is something we take very seriously. 
Any discovered or reported Page or Group on Facebook that facilitates 
such illegal activity would violate our Statement of Rights and 
Responsibilities (https://www.facebook.com/legal/terms), our ``terms'', 
which state that users may not ``use Facebook to do anything unlawful . 
. .''
    Of course, beyond removing content ourselves, we also have 
implemented an online system for law enforcement that facilitates our 
receipt and processing of legal process in a timely manner. To this 
end, if your office becomes aware of the illegal trading or selling of 
children, all law enforcement officials may use this tool so that we 
may quickly respond to their requests. More information on our system 
and process can be found in our law enforcement guidelines (https://
www.facebook.com/safety/groups/law/guidelines/).
    In addition to your general concern regarding the practice of ``re-
homing'', your letter asked us to answer four questions. They are 
addressed below:

    Question 1. Has your company taken any steps to ensure your website 
is not used to facilitate illegal acts of ``re-homing''. If so, what 
were those steps?
    Answer 1. With your staff, and on separate occasions, we searched 
for pages and groups using ``re-homing'' and other keywords that were 
likely to turn up the type of content you described if it existed. 
These searches mostly surfaced pages dedicated to finding new homes for 
pets. No evidence of the type of pages you described was found.
    In addition, we work very hard to ensure that any illegal activity 
does not take place on Facebook, including:

    <bullet> Instituting a Real Name Culture--We've built a network 
based on authentic identity, so people are more likely to treat each 
other with respect. It is a violation of our policies to use a fake 
name or operate under a false identity.
    <bullet> Developing Easy to Use Reporting Mechanism--There are 
``Report'' links on virtually every Facebook page, and anyone in our 
community can block people who post hurtful content.
    <bullet> Creating a Support Dashboard--We've created a feature that 
lets people see whether or not their report has been reviewed and 
allows them to be notified when a decision is made.

    Question 2. In the past 2 years, has your company discovered, or 
been made aware of, Facebook users facilitating illegal ``re-homing'' 
arrangements through Facebook's website? If so, what was your company's 
response?
    Answer 2. Other than your request, we located one law enforcement 
inquiry from South America that requested details of an account 
allegedly used to promote illegal adoptions in that region. There was 
no information on the site responsive to the request. As we discussed, 
if people were discussing the activity in closed Groups or in private 
messages, we do not know about those communications unless they are 
reported to us.

    Question 3. Are violations of the interstate Compact on the 
Placement of Children also violation of Facebook's user agreement? Are 
violations of State endangerment laws also violation of Facebook's user 
agreement?
    Answer 3. Our terms section 3.4 reads: ``You will not use Facebook 
to do anything unlawful, misleading, malicious, or discriminatory.'' As 
such, violations of law would be a violation of our terms.

    Question 4. Does your company have a policy on whether Facebook 
users are allowed to use Facebook to facilitate child placement 
arrangements that are illegal acts of ``re-homing'' or likely to be 
illegal acts of ``re-homing?''
    Answer 4. As noted above, our terms prohibit using Facebook for any 
unlawful activities. We do not have specific policies regarding ``re-
homing'' by name as it would be impracticable for us to list everything 
that is an unlawful act and a prohibited use of Facebook. This is why 
we use the language we do in our terms--under which acts of illegal 
``re-homing'' would not be allowed.
    Thank you for bringing this matter to our attention. Ensuring the 
safety of our users is a priority at Facebook and, to that end, we 
stand ready to respond to any warrants we receive pertaining to child 
endangerment (or other criminal) matters. We also look forward to 
continuing to work directly with your staff on this and a host of 
others important issues facing the people of Illinois.
            Sincerely,
                                    William D. Castleberry,
                                   Director of State Public Policy.

    [Whereupon, at 11:27 p.m., the hearing was adjourned.]

                                [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
